<html>
<title> - LEGISLATIVE HEARING ON H.R. 4347, TO AMEND THE INDIAN SELF- DETERMINATION AND EDUCATION ASSISTANCE ACT TO PROVIDE FURTHER SELF- GOVERNANCE BY INDIAN TRIBES, AND FOR OTHER PURPOSES. ``DEPARTMENT OF THE INTERIOR TRIBAL SELF-GOVERNANCE ACT OF 2009.''</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                       H.R. 4347, DEPARTMENT OF
                          THE INTERIOR TRIBAL
                      SELF-GOVERNANCE ACT OF 2009

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        Wednesday, June 9, 2010

                               __________

                           Serial No. 111-55

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
56-976 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
Ben Ray Lujan, New Mexico            Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 9, 2010..........................     1

Statement of Members:
    Boren, Hon. Dan, a Representative in Congress from the State 
      of Oklahoma................................................     3
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     3
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Davis, Laura, Associate Deputy Secretary, U.S. Department of 
      the Interior, Washington, D.C..............................     4
        Prepared statement of....................................     6
    Gomez, Donovan, Tribal Programs Administrator/Self-Governance 
      Coordinator, Pueblo of Taos, Taos, New Mexico..............    31
        Prepared statement of....................................    32
    Keith, Robert, Chairman of the Board, Kawerak, Inc., Nome, 
      Alaska.....................................................    26
        Prepared statement of....................................    28
    Levings, Hon. Marcus D., Chairman, Three Affiliated Tribes of 
      the Fort Berthold Reservation, New Town, North Dakota......    23
        Prepared statement of....................................    25
    Pyle, Hon. Gregory E., Chief, Choctaw Nation of Oklahoma, 
      Durant, Oklahoma...........................................    20
        Prepared statement of....................................    21

Additional materials supplied:
    Isaac, Hon. Jerry, President, Tanana Chiefs Conference, 
      Statement submitted for the record.........................    48
    List of documents retained in the Committee's official files.    49

 
      LEGISLATIVE HEARING ON H.R. 4347, TO AMEND THE INDIAN SELF-
  DETERMINATION AND EDUCATION ASSISTANCE ACT TO PROVIDE FURTHER SELF-
 GOVERNANCE BY INDIAN TRIBES, AND FOR OTHER PURPOSES. ``DEPARTMENT OF 
           THE INTERIOR TRIBAL SELF-GOVERNANCE ACT OF 2009.''

                              ----------                              


                        Wednesday, June 9, 2010

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:00 a.m. in Room 
1324, Longworth House Office Building, Hon. Nick J. Rahall, II 
[Chairman of the Committee] presiding.
    Present: Representatives Rahall, Kildee, Napolitano, Boren, 
Herseth Sandlin, Lujan, Hastings, Young, Lummis, Baca, Sablan 
and Smith of Nebraska.

 STATEMENT OF THE HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    The Chairman. The Committee on Natural Resources will come 
to order. The Committee is meeting today to conduct a hearing 
on H.R. 4347, the Department of the Interior Tribal Self-
Governance Act of 2009, sponsored by the gentleman from 
Oklahoma and a valued Member of our Committee on Natural 
Resources, Mr. Dan Boren. Under self-governance, Indian tribes 
assume the duties of the Federal Government for certain 
programs within the Department of the Interior and the 
Department of Health and Human Services. This has been hailed 
as one of the most successful Federal programs for Indian 
tribes.
    The Government Accountability Office has noted that tribes 
engaging in self-governance have greater gains in employment 
levels compared to tribes that participate less in the program. 
In addition, self-governance tribes have experienced positive 
growth and employment levels and per capita income. Congress 
made changes to the self-governance program at the Department 
of Health and Human Services in 2000. Since then, Indian tribes 
have experienced improvements in administration of self-
governance within the Indian Health Service. The bill before us 
today would amend the Department of the Interior Self-
Governance Program to make it consistent with the self-
governance program at the Department of Health and Human 
Services.
    It will allow Indian tribes to assume the administration of 
programs at the Department of the Interior using rules and 
procedures similar to those used at the Indian Health Service. 
Again, I want to commend our colleague from Oklahoma, Mr. 
Boren, for his valuable leadership and his advice to our 
Committee on so many issues of importance to Indian tribes, and 
welcome his participation today. I recognize the Ranking 
Member.
    [The prepared statement of Chairman Rahall follows:]

       Statement of The Honorable Nick J. Rahall, Ii, Chairman, 
                     Committee on Natural Resources

    The Committee is meeting today to conduct a hearing on H.R. 4347, 
the ``Department of the Interior Tribal Self-Governance Act of 2009,'' 
sponsored by the gentleman from Oklahoma, Dan Boren.
    Under self-governance, Indian tribes assume the duties of the 
Federal government for certain programs within the Department of the 
Interior and the Department of Health and Human Services. This has been 
hailed as one of the most successful federal programs for Indian 
tribes.
    The Government Accountability Office has noted that tribes engaging 
in self-governance have greater gains in employment levels compared to 
tribes that participate less in the program. In addition, self-
governance tribes have experienced positive growth in employment levels 
and per capita income.
    Congress made changes to the self-governance program at the 
Department of Health and Human Services in 2000. Since then, Indian 
tribes have experienced improvements in the administration of self-
governance within the Indian Health Service.
    The bill before us today would amend the Department of the Interior 
self-governance program to make it consistent with the self-governance 
program at the Department of Health and Human Services. It will allow 
Indian tribes to assume the administration of programs at the 
Department of the Interior using rules and procedures similar to those 
used at the Indian Health Service.
    I look forward to hearing the testimony this morning.
                                 ______
                                 

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman, and thank you for 
scheduling this hearing on the Department of the Interior Self-
Governance Act of 2009. This legislation builds upon a policy 
of promoting tribal self-determination that was initiated, at 
least in the modern era, by President Richard Nixon in his 
Special Message on Indian Affairs dated July 8, 1970. While the 
principle of tribal self-determination is a simple one, H.R. 
4347 is quite lengthy and complex. Three years ago, the 
Committee held a hearing on a similar version of the bill and, 
at that time, the Department of the Interior raised a number of 
institutional, as well as constitutional, concerns with the 
proposal. It is my understanding that H.R. 4347 is somewhat 
scaled back compared to that version. I look forward to hearing 
the analyses of today's witnesses as we explore the means of 
maximizing the freedom of tribes to improve the lives of their 
members. Thank you, Mr. Chairman.
    The Chairman. The Chair recognizes another valued Member of 
our Committee, the gentleman from Michigan who is Co-Chair of 
the Native American Caucus in the Congress, Mr. Dale Kildee.

STATEMENT OF THE HON. DALE KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you very much, Mr. Chairman. I would like 
to applaud this Administration's willingness and openness in 
working with Congress and tribes on this legislation. The 
Administration still has questions concerning the legislation, 
but they have demonstrated their desire to work on a 
compromise. This is a vast improvement from previous 
administrations who were flat out opposed to any changes in 
tribal self-governance. I look forward to working with you, Mr. 
Chairman, and your counterpart, Doc, who is a dear friend also, 
and hopefully we can resolve this and bring it to a closure and 
send a good bill over to the White House. Thank you.
    The Chairman. Thank you. I now recognize the gentleman from 
Oklahoma, Mr. Boren.

 STATEMENT OF THE HON. DAN BOREN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF OKLAHOMA

    Mr. Boren. Thank you, Mr. Chairman. I want to thank you and 
the Ranking Member for holding this hearing and for the 
consideration of this legislation. You know, my district 
encompasses the jurisdictional areas of 17 of Oklahoma's 38 
Federally recognized tribes, the majority of which are self-
governance tribes, and all of them have tremendous positive 
impacts on their communities, so naturally, when an issue that 
so closely affects Oklahoma tribes comes and falls into my lap, 
we sit up and pay attention. This was the case with the issue 
of tribal self-governance. The premise of this initiative is 
simple.
    It relates specifically to two core principles: (1) tribal 
sovereignty and the right of tribal nations to control their 
own destinies; and (2) the enormous rewards that come from 
allowing local control over local programs. The self-governance 
approach was born in the late 1980s upon the revelation that 
only about a penny--I can't believe this--about a penny on the 
dollar of Federal money appropriated for the benefit of Indians 
actually made it out of the bureaucracy and into Indian 
Country. This statistic was even more disturbing when compared 
with the woeful social and economic disparities that exist for 
Native Americans compared to any other demographic, a sad 
statistic that is still very true today.
    So tribes approached Congress and sought out a way to give 
Indian Country more control about where and how scarce Federal 
dollars were to be spent for their benefit. The result was a 
myriad of well-intentioned approaches that culminated 
eventually in 1994 with the birth of Title IV of the Indian 
Self-Determination and Education Assistance Act. Title IV 
empowered tribes at their choosing to be able to have control 
necessary to maximize the services of their people, and the 
results speak for themselves. To quote the late Cherokee Nation 
Chief, Wilma Mankiller, she said ``The success of self-
governance has been nothing short of astounding.''
    Through the years of rulemaking and implementation, we 
learned volumes about what works and what doesn't work, so when 
Congress came back years later to apply the same model to the 
Indian Health Service, which is Title V, many improvements were 
made. The result was a much more mature and efficient self-
governance program at IHS, but those improvements we have seen 
work so well at IHS have yet to make it into the Title IV BIA 
program. My bill, H.R. 4347, simply tries to bring parity 
between the two self-governance programs. Additionally, my 
office was approached with concerns for tribes who may opt for 
direct service instead of self-governance but still utilize 
Title I contracting authority for individual projects who also 
highlighted needs for improvements, so H.R. 4347 also includes 
updates to Title I intended in the same spirit of improving the 
clarity and efficiency of the programs intended for the benefit 
of Native Americans.
    So many of us on the Committee come here and advocate that 
our citizens know best what the needs are of their own 
communities. It is the same for tribal nations. Respecting that 
view is fundamental to the concept of tribal sovereignty and 
what this legislation is all about. Tackling a project is 
complicated. I can tell you it has been a challenge for me, 
particularly, and I know it has been for my staff. I want to 
personally thank Wendy Kirchoff. That was not in my prepared 
remarks. I want to thank you so much for all that you have 
done. She has been a real trooper on this. Also, the entire 
Committee staff and all of the tribes involved and the 
Administration. We would not be here today without your 
diligent work. Again, I want to thank Chairman Rahall. I look 
forward to the testimony of our witnesses. I yield back.
    The Chairman. Thank you, Mr. Boren. The gentleman from 
Virginia, Mr. Wittman. OK. All right. We are ready for our 
first panel which is composed of Ms. Laura Davis, Associate 
Deputy Assistant Secretary of the Interior, U.S. Department of 
the Interior, Washington, D.C. She is accompanied by Mr. George 
Skibine, the Acting Principal Deputy Assistant Secretary, 
Indian Affairs, U.S. Department of the Interior, Washington, 
and Mr. John Rever, Director, Office of Facilities, Environment 
and Cultural Resources, U.S. Department of the Interior. Laura, 
we welcome you to the Committee once again. We have your 
prepared testimony. You may proceed as you wish.

STATEMENT OF LAURA DAVIS, ASSOCIATE DEPUTY ASSISTANT SECRETARY 
 OF THE INTERIOR, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, 
   D.C.; ACCOMPANIED BY MR. GEORGE SKIBINE, ACTING PRINCIPAL 
DEPUTY ASSISTANT SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF 
 THE INTERIOR, WASHINGTON, D.C., AND MR. JOHN REVER, DIRECTOR, 
OFFICE OF FACILITIES, ENVIRONMENT AND CULTURAL RESOURCES, U.S. 
          DEPARTMENT OF THE INTERIOR, WASHINGTON D.C.

    Ms. Davis. Thank you, sir. Good morning, Chairman Rahall, 
Ranking Member Hastings and Members of the Committee. Thank you 
very much for the opportunity to appear before you today to 
discuss the Department of the Interior's Tribal Self-Governance 
Program and H.R. 4347, the Department of the Interior Tribal 
Self-Governance Act. President Obama recognizes that Federally 
recognized Indian tribes are sovereign, self-governing 
political entities that enjoy a government-to-government 
relationship with the United States Government, as expressly 
recognized in the U.S. Constitution.
    During the opening remarks delivered by the President at 
the Tribal Nations Conference at the Department of the Interior 
on November 5, 2009, the President affirmed that he is 
``Absolutely committed to moving forward with tribes and 
forging a new and better future together. It is a commitment 
that is deeper than our unique nation to nation relationship. 
It is a commitment to getting this relationship right so that 
you can be full partners in the American economy, and so your 
children and your grandchildren can have an equal shot at 
pursuing the American dream.'' Secretary Salazar, too, is a 
strong supporter of the principle of tribal self-determination, 
and he is committed to working to fully enable tribal self-
governance.
    We believe that Indian leadership is critical in facing and 
solving the problems of today and that Indians must have a 
voice in programs and government efforts which are important to 
their lives. I want to begin by underscoring that the 
Department of the Interior supports the Indian Self-
Determination and Education Assistance Act. We really 
appreciate the ways that the compacts under this Act have 
helped to strengthen the government-to-government relationship 
with tribes. We support appropriate strengthening of the 
existing Act to make it work better for the Federal Government 
and for tribes. We know that self-governance tribes have been 
good managers of the programs they have undertaken.
    Many times tribes add their own resources to the programs 
and they are able to fashion programs to meet the particular 
needs of their tribal members. Tribes are also better suited to 
address the changing needs of their members. Our support for 
the principles of self-determination and self-governance is 
unequivocal, but H.R. 4347 as currently drafted poses practical 
and legal problems with regard to appropriate management of 
Federal funding and programs. Thus, the Department does have 
significant concerns with the bill as drafted. The legislation 
deals not only with funding agreements between tribes and BIA, 
but also funding agreements between tribes and non-BIA bureau 
programs within Interior that have both Indian and non-Indian 
stakeholders.
    We are interested in discussing with you and tribes how to 
improve and increase the frequency of these important 
agreements, but under this legislation as drafted, the ability 
of the Secretary is limited to maintain appropriate levels of 
control over the programs that would be subject to self-
governance contracting. Given the breadth of the Department's 
responsibilities, we are concerned that the legislation could 
hinder the Department's ability to accomplish its statutory 
mandates by limiting Secretarial discretion in some areas and 
allowing for the transfer of certain functions that we believe 
should appropriately be maintained at the Federal level.
    For example, provisions allowing redesign and consolidation 
of projects appear to give tribes the ability to unilaterally 
change construction project design, and, as you know, 
construction projects may be subject to very specific 
authorizations and the Secretary needs to retain an appropriate 
level of oversight to ensure that it is carried out in 
accordance with that authorization.
    We are also concerned about the mandatory demonstration 
projects identified in Section 405[b][2] of Title II. We are 
concerned that the legislation doesn't include measures for 
success for these projects, and there are already many examples 
of successful operation of self-governance programs, so we 
question the need for inclusion of these particular projects as 
mandatory demonstration projects.
    For broader context, I would like to provide some examples 
of successes the Department has had under the current act. The 
Chickasaw Nation is a great example. The tribe very 
successfully directly administers education, law enforcement, 
Court and career services under self-governance. The Bureau of 
Reclamation has had successes under the current law. In Fiscal 
Year 2009 they had five annual funding agreements with five 
tribes totaling about $67 million, including Recovery Act 
funds. So we feel strongly we have had good success in 
implementing these important programs with tribes under the 
current act.
    Let me just say again, while we have concerns with the 
legislation as introduced, we very much want to work with the 
Committee and with tribes on expanding compacting 
opportunities, we want to work with you on this legislation, we 
want to improve our program. I also want to reiterate the 
Administration's commitment to restoring the integrity of the 
government-to-government relationship with Indian tribes. Mr. 
Chairman, this concludes my oral statement, and I will be happy 
to answer any questions that you may have. Thank you very much.
    [The prepared statement of Ms. Davis follows:]

         Statement of Laura Davis, Associate Deputy Secretary, 
                    U.S. Department of the Interior

    Good morning, Chairman Rahall, Ranking Member Hastings, and Members 
of the Committee. Thank you for the opportunity to appear before you 
today to discuss the Department of the Interior's Tribal Self 
Governance program and H.R. 4347, the Department of the Interior Tribal 
Self-Governance Act. President Obama recognizes that federally 
recognized Indian tribes are sovereign, self-governing political 
entities that enjoy a government-to-government relationship with the 
United States government, as expressly recognized in the U.S. 
Constitution. Secretary Salazar too is a strong supporter of the 
principle of tribal self-determination and he is committed to working 
to fully enable tribal self-governance.
    This Administration believes in Indian self-determination. 
Furthermore, we believe that Indian leadership is critical in facing 
and solving the problems of today, and that Indians must have a voice 
in programs and government efforts which are important to their lives. 
During the opening remarks delivered by President Obama at the Tribal 
Nations Conference held on November 5, 2009, the President affirmed 
that he is ``absolutely committed to moving forward with [Tribes] and 
forging a new and better future together. It's a commitment that's 
deeper than our unique nation-to-nation relationship. It's a commitment 
to getting this relationship right, so that you can be full partners in 
the American economy, and so your children and your grandchildren can 
have a equal shot at pursuing the American Dream.'' In the spirit of 
our ongoing efforts to get this relationship right, we hope that this 
statement can lead to productive dialogue and perhaps to improvements 
in our application of the Indian Self-Determination and Education 
Assistance Act (ISDEAA) (25 U.S.C. 450 et seq.).
    I want to begin by underscoring that in general, the Department of 
the Interior (Department) supports ISDEAA. We appreciate the ways that 
funding agreements under this Act have helped to strengthen the 
government-to-government relationship with Tribes. We support 
appropriate strengthening of the existing ISDEAA to make it work better 
for the Federal government and for Tribes. Self-governance Tribes have 
been good managers of the programs they have undertaken. Many times, 
Tribes add their own resources to the programs and are able to fashion 
programs to meet their needs and the particular needs of their members. 
Tribes are also better suited to address the changing needs of their 
members. Tribes have often observed that when they are working under 
Self-governance compacts and funding agreements, they are not viewed by 
the Federal government as just another Federal contractor, and that 
their work under funding agreements reflects a true government-to-
government relationship characterized by mutually agreed-to 
responsibilities and tribal empowerment to make a program work.
    However, while our support for the principles of self-determination 
and self-governance is unequivocal, H.R. 4347 as currently drafted 
poses significant practical and legal problems with regard to 
appropriate management of federal funding and programs. This 
legislation deals not only with funding agreements between Tribes and 
BIA, but also funding agreements between tribes and non-BIA bureau 
programs within Interior. We are interested in discussing how to 
improve and increase the frequency of these agreements, but under this 
legislation as drafted there is very little ability on the part of the 
Secretary to maintain appropriate levels of control over the programs 
that would be subject to self-governance contracting. Given the breadth 
of the Department's responsibilities, this legislation could 
significantly hinder the Department's ability to accomplish its 
statutory mandates by limiting Secretarial discretion and allowing for 
the transfer of certain functions that should appropriately be 
maintained at the Federal level.
    The Administration continues to analyze this complex bill. 
Nevertheless, the Department has identified significant concerns with 
this bill as drafted. We would like to work with the Committee and 
tribal representatives to discuss Departmental concerns with this 
legislation. We also note the bill as introduced reflects efforts by 
the bill proponents to address some of the issues raised by the 
Department when we testified on a similar bill two years ago. With 
further dialogue and information exchanges, this bill could be 
significantly improved.
    My statement will begin with a brief discussion of the history of 
the ISDEAA. I will then discuss some examples of successes that the 
Department has recently had under the enacted ISDEAA. Finally, I will 
conclude with a discussion of certain specific concerns with the bill.
Background
    In 1988, Congress amended the ISDEAA by adding Title III, which 
authorized the Self-Governance demonstration project. In 1994, Congress 
again amended the Act by adding Title IV, establishing a program within 
the Department of the Interior to be known as Tribal Self-Governance. 
The addition of Title IV made Self-Governance a permanent option for 
tribes. These amendments, in section 403(b), authorize federally 
recognized tribes that meet criteria established for the program to 
negotiate funding agreements with the Department for programs, 
services, functions or activities administered by the Bureau of Indian 
Affairs (BIA) and, within certain parameters, authorized funding 
agreements with other bureaus of the Department. In 2000, the Act was 
amended again to include Titles V and VI, making Self-Governance a 
permanent option for tribes to negotiate compacts with the Indian 
Health Service (IHS) within the Department of Health and Human Services 
and providing for a now-completed study to determine the feasibility of 
conducting a Self-Governance Demonstration Project in other programs of 
that department.
    Current law allows federally recognized Tribes and tribal 
consortiums to assume programs administered by the Department's bureaus 
and offices other than the BIA, subject to negotiations when the 
programs are available to Indian Tribes or Indians because of their 
status as Indians. The law also provides the Secretary with discretion 
to include other programs administered by the Secretary which are of 
special geographic, historical, or cultural significance to the 
participating Tribe requesting a compact.
    Tribal participation in self-governance has progressed from seven 
tribes and total obligations of about $27 million in 1991 to an 
expected 100 agreements including 260 federally recognized tribes and 
obligations in excess of $420 million in FY 2011. This figure includes 
funding from BIA and other Federal funds that pass through BIA. Other 
Department bureaus also fund agreements under the authority of P.L. 93-
638.
    These self-governance funding agreements allow federally recognized 
tribes to plan, conduct, consolidate, and administer programs, 
services, functions, and activities according to priorities established 
by tribal governments. Under these agreements, tribes provide a wide 
range of programs and services to their members such as law 
enforcement, education, and welfare assistance. Many of the funding 
agreements include trust related programs such as real estate services, 
appraisals, probates and natural resource programs such as forestry, 
fisheries, and agriculture. Under tribal self-governance, tribes have 
authority for BIA programs to redesign or consolidate programs, 
services, functions, and activities other than construction. In 
addition, self-governance tribes can reallocate funds during the year 
and carry over unspent funds into the next fiscal year without 
Secretarial approval. As a result, these funds can be used with 
relative flexibility to address each tribe's unique condition. Self-
governance tribes are subject to annual trust evaluations to monitor 
the performance of trust functions they perform. They are also subject 
to annual audits pursuant to the Single Audit Act Amendments (P.L. 104-
156) and OMB Circular A-133. In addition, most self-governance tribes 
have included language in their funding agreements indicating that they 
will work with the Department to provide applicable data and 
information pursuant to the Government Performance and Results Act of 
1993.
    What makes these funding agreements unique is that Title IV of 
ISDEAA allows participating tribal governments to re-design programs 
for their members and set their own priorities consistent with Federal 
laws and regulations. This authority allows tribal leaders to respond 
to the unique needs of their tribal members without seeking approval by 
Departmental officials.
    Because the Administration recognizes the need to fund Tribes for 
the work they do on behalf of the Federal government, the President's 
proposed 2011 budget for the Bureau of Indian Affairs provides an 
increase of $19.5 million for Contract Support. This is one of the 
highest priorities for the Tribes. Current appropriations fund the 
majority of direct and indirect costs needed by Tribes to administer 
programs under P.L. 93-638. The budget also addresses one-time start up 
costs for new funding agreements with an additional $2 million for the 
Indian Self Determination Fund. There is also an increase of $3.0 
million for Small and Needy Tribes, which is intended in part to 
encourage a more diverse group of Tribes to enter into contracts.
    The budget also increases funding for Tribal Grant Support Costs in 
the Bureau of Indian Education, raising the support to approximately 66 
percent of total direct and indirect costs. This program fosters self-
determination by providing resources for Tribes to directly operate 
BIE-funded schools under contract or grant authorization.
Successes
    Many Tribes have been successful implementing Self-Governance 
programs to meet their tribal needs. A few of the many success stories 
will be mentioned here. For example, the Chickasaw Nation 
accomplishments in 2006 included providing education services to 7,209 
students. 945 students participated in remedial education and tutoring 
and 82% of the students receiving tutoring gained one grade level or 
more. Scholarships were provided to 181 undergraduate students and 43 
graduate students. The Tribe's tribal district court heard 1,118 cases. 
It collected almost $50,000 in court fees and over $32,000 for 
restitution and child support. In January 2006, the Tribe's Supreme 
Court and district court were audited by a team from the BIA central 
office and received excellent ratings. The Tribe also provided career 
counseling, skills assessment, aptitude testing, and other employment 
readying services to 1,320 clients. The Tribe coordinated a job fair 
that attracted 53 vendors and over 500 job seekers. The Tribe's police 
department implemented a new computer system which has aided in 
multiple dispatching methods and improved data collection, 
investigation, and crime analysis and reporting. This example is just 
one of many where Tribes have been successful in directly administering 
federal programs.
    Section 403(b)(2) of Title IV of ISDEAA authorizes other bureaus 
within the Department to enter into funding agreements with Tribes 
subject to such terms as may be negotiated between the parties. The 
Council of Athabascan Tribal Governments (CATG) has successfully 
implemented Annual Funding Agreements (AFAs) since 2004 to perform 
activities in the Yukon Flats National Wildlife Refuge in the interior 
of Alaska. The CATG is a consortium that represents the Tribal 
governments of Arctic Village, Beaver, Birch Creek, Canyon Village, 
Chalkyitsik, Circle, Gwichyaa Zhee Gwich'in Tribal Government of Fort 
Yukon, Rampart, Stevens Village, and Venetie. Members of these Tribes 
live near or within the Yukon Flats National Wildlife Refuge, the third 
largest of the more than 540 conservation units in the National 
Wildlife Refuge System. The Refuge was established in 1980, and 
includes more than 8.5 million acres of wetland and boreal forest 
habitat along 300 miles of the Yukon River, north of Fairbanks, Alaska. 
It is internationally noted for its abundance of migratory birds.
    Activities subject to the AFAs include: 1) wildlife harvest data 
collection; 2) Yukon Flats moose management, including estimating moose 
populations (in cooperation with the Alaska Department of Fish and 
Game) and establishing the Yukon Flats Moose Management Steering 
Committee to enhance outreach efforts and increase communications with 
local residents regarding Yukon Flats National Wildlife Refuge moose 
management activities; and (3) maintaining Federal property in and 
around Fort Yukon. Public use (including sport and subsistence hunting, 
fishing, and trapping) is not affected by these agreements. Consistent 
with Title IV, management authority remains with the U.S. Fish and 
Wildlife Service (FWS) as required by the National Wildlife Refuge 
System Administration Act.
    A true partnership and spirit of cooperation has developed from the 
history of controversy between the FWS and the Confederated Salish and 
Kootenai Tribes (CSKT) of the Flathead Nation over the National Bison 
Range Complex in Montana. Effective on October 1, 2008, a funding 
agreement for fiscal years 2009-2011 provides for an on-the-ground 
partnership in the management of programs by the CSKT on 4 units of the 
Refuge System, located on the Flathead Indian Reservation in Montana. 
In January 2009, under the direction and decision-making authority of 
the Refuge Manager, CSKT assumed management of the biological, 
maintenance, fire management and portions of the visitor services 
programs. CSKT staff have participated in a variety of FWS sponsored 
trainings and the bison round-up event in October 2009 was highly 
successful. In fiscal year 2009, FWS provided approximately $1.7 
million to CSKT, including a $650,000 for a ARRA-funded bridge 
replacement project. Approximately $986,000 will be transferred to the 
CSKT for operations in fiscal year 2010.
    The agreements between the Grand Portage Band of Chippewa and Grand 
Portage National Monument show how the Self-Governance program works in 
the National Park Service. Grand Portage National Monument and Grand 
Portage Band of Chippewa have had 11 years of successive base contracts 
for all maintenance, design and construction at the monument. There 
have been 13 amendments to the base contract plus 68 additional 
projects for GIS, sewage lift stations, trail work, exhibits, parking 
lots, landscaping, signage, mortar work, generator and roof repair, and 
more. The tribe manages roughly one quarter of the annual 
appropriations made to NPS for the Grand Portage National Monument. As 
of September 2009, $4,514,173 has been transferred and used for 
projects completed.
    The Bureau of Reclamation has also had successes implementing the 
current law. In FY2009, Reclamation had five annual funding agreements 
with five Tribes, totaling about $67 million, which includes ARRA 
funds. One of these funding agreements is with the Chippewa Cree Tribe 
(CCT) of the Rocky Boy's Reservation. Reclamation's Montana Area Office 
in the Great Plains Region and the CCT have been working together under 
a series of Self-Governance Annual Funding Agreements (AFAs) under 
Title IV of P.L. 93-638 to implement on-reservation water resource 
development as provided for in the CCT's 1999 water rights settlement 
act. Under these AFAs, the CCT assumed responsibility for planning, 
designing, and constructing dam enlargement and rehabilitation for 
Bonneau, Brown's, and East Fork Dams and Towe Ponds, as well as 
providing for future water development.
    The CCT created the Chippewa Cree Construction Company (CCCC), 
which has successfully completed much of the work carried out under 
these AFAs, providing training and jobs for tribal members in the 
process. Reclamation's role has been to provide administrative 
oversight and technical assistance. The working relationship between 
the CCT and Reclamation has been cordial, productive, and carried out 
in a professional manner. As of August 2009, the CCT completed all of 
the work at Bonneau, Browns, East Fork Dams and Towe Ponds. At this 
time, all of the facilities are operational and are full or 
substantially full. Another successful working relationship between 
Reclamation and the CCT under Title IV involves ongoing work on 
features of the Rocky Boys/North Central Montana Water Project, a rural 
water system.
    One of the most exciting demonstrations of the success of Tribes 
that participate in Self-Governance programs has been their recognition 
from Harvard's Kennedy School of Government through the Honoring 
Nations Award, which celebrates outstanding examples in Tribal 
Governance. One recipient of the Award was the Cherokee Nation. The 
Nation received an award for the history course that is required for 
all employees. The course provides employees with a strong sense of 
pride and a solid understanding of self-governance. It has changed 
their self-perception from being service recipients to that of service 
providers and active citizens. Another recipient was the Oneida Nation 
(Wisconsin). They were recognized for their achievement in creating an 
Oneida Nation Farm and Agricultural Center which merged land use and 
sustainable development. The Farm and Agricultural Center provides for 
economic development and the use of the land in a manner that 
recognizes and respects traditional and cultural values.
    Recently, the Osage Nation received ``High Honors'' from Harvard's 
Honoring Nations program for its successful efforts toward achieving 
governmental reform. The Osage Nation's Government Reform Initiative 
was recognized for its successful design of a new government that could 
better represent and serve all Osages. The Gila River Indian Community 
is another Self-Governance tribe that received a past Honoring Nations 
Award for dramatically improving its capacity in law enforcement and 
public safety. Since compacting for tribal control, the Gila River 
Indian community police improved effectiveness and efficiency of 
service to their community.
Major Concerns with H.R. 4347
    I will highlight a number of our specific concerns, although there 
are others that we would like to discuss with Tribes and this 
Committee. First, and of concern from the perspective of the overall 
Departmental budget are provisions of this legislation that would 
potentially reduce the Secretary's discretion to reallocate funds among 
different programs as a result of changing priorities and the emergence 
of new critical needs. As we interpret various provisions of this bill, 
including section 413 as proposed in title II, programs or projects 
that are funded through Title IV funding agreements under H.R. 4347 
would have to be specifically identified in the President's budget 
submissions to Congress. Further, the bill potentially limits the 
discretion of the Secretary or the President to make a determination 
about the relative priority of programs for budget purposes, and may 
give an advantage to the programs funded through Title IV agreements. 
This could result in the reduction of important programs, such as law 
enforcement and education.
    Second, we are concerned about several of the provisions in the 
bill concerning construction, several of which will be identified here. 
One concern is provisions allowing the ``redesign and consolidation'' 
of projects, found in sections 103 and 406(d) (as proposed in title 
II). Read together with section 408 (as proposed in title II), which 
allows Tribes to carry out construction projects under self-governance 
funding agreements, the provisions on ``redesign and consolidation'' 
appear to give Tribes the ability to unilaterally change construction 
project design. Construction projects may be subject to very specific 
authorizations and the Secretary needs to retain an appropriate level 
of oversight to ensure that the construction is carried out in 
accordance with the Congressional authorization.
    We also have concerns about the potential lack of flexibility to 
negotiate adequate oversight of planning and design, as well as 
construction inspection, for construction projects over which the 
Secretary maintains long-term responsibilities, or which have public 
safety implications, such as dam construction activities or other 
activities related to safety of dams. Additionally, we are concerned 
that section 408 (as proposed in title II) does not adequately deal 
with various construction contingencies and that as a result there are 
potential liabilities for both the Secretary and the contracting 
tribes. For example, section 408 does not deal with the possibility of 
a construction project being started but not completed, perhaps due to 
lack of funds or some other unforeseen circumstance. At the very least, 
concerns about the respective liabilities of the Secretary and the 
Tribes in such circumstances should be dealt with up front, as part of 
the agreement relating to the construction project.
    Third, we want to draw the Committee's attention to section 408(b) 
as proposed in title II of this legislation, under which Tribes 
carrying out construction projects under self-governance funding 
agreements have the option of assuming ``Federal responsibilities'' 
under the National Environmental Policy Act (NEPA), the National 
Historic Preservation Act (NHPA), and ``related provisions of law that 
would apply if the Secretary were to undertake a construction 
project.'' The bill language requires that the Tribe accept the 
jurisdiction of Federal courts to enforce the responsibilities of the 
responsible Federal agency under the relevant law. We are aware that 
this authority exists for the Indian Health Service at 25 USC 458aaa-8 
and that similar authority exists under the Native American Housing 
Assistance and Self Determination Act of 1996 (NAHASDA), such that 
tribes assume federal NEPA responsibility for NAHASDA and Indian 
Community Block Grant projects funded by the federal Department of 
Housing and Urban Development (HUD). While we understand that the 
delegation of authority has worked in these contexts, we are concerned 
that NEPA decision-making in the context of the Department's natural-
resource management missions involves more complex balancing of 
missions and requires very specialized policy expertise. We want to 
discuss ways of involving Tribes more closely in environmental and 
other types of compliance for relevant projects consistent with the 
regulations of the Council on Environmental Quality implementing NEPA, 
the regulations of the Advisory Council on Historic Preservation 
implementing the NHPA, and other government-wide requirements. We have 
concerns with and do not support language delegating to Tribes the 
Federal responsibility for making a determination of policy under NEPA, 
the NHPA, and related environmental and cultural compliance 
requirements for Department bureaus. This is particularly the case for 
some of the larger construction projects sometimes undertaken by 
Department bureaus which have the potential to affect many diverse 
communities, threatened and endangered species, and cultural treasures.
    Fourth, we note that Section 405(b)(2) as proposed in title II of 
this legislation would establish three demonstration projects, for each 
of which the Department would be required to make available designated 
programs, functions, services, activities, or portions thereof to 
designated tribes for the period 2011-2015 under Title I or Title IV of 
P.L. 93-638. We have met four times with the Tribal Self-Governance 
Title IV Task Force, including the tribes who would undertake the 
demonstration projects, with the most recent meeting occurring on April 
8, 2010. In one of the meetings with this group, the demonstration 
projects were discussed with the respective tribes. Each tribe provided 
a brief description of the planned demonstration projects and 
identified certain goals. However, the legislation does not include 
measures for success in the proposed demonstration projects, nor is the 
purpose of selecting these particular projects as demonstration 
projects specified. Since there are already many examples of successful 
operations of self-governance programs, which are discussed later in 
this statement, we question the need for the inclusion of these 
particular projects as mandatory demonstration projects.
    Moreover, we object to the requirement described in Section 
405(b)(2)(A) that the Bureau of Reclamation make available to the Hoopa 
Valley Tribe all programs, functions, services and activities ``carried 
out under Public Law 102-575 for the purpose of restoring the Trinity 
River fishery.'' Under P.L. 102-575, Reclamation works with multiple 
entities to restore Trinity River fisheries to their pre-dam levels. 
These include the Hoopa Valley Tribe and the Yurok Tribe, with whom 
Reclamation entered into Title IV funding agreements in FY2009 in the 
amounts of $1.5 and $1.4 million respectively. These funding agreements 
constituted about one-third of FY 2009 Trinity River project funding. 
The scope of the Trinity River restoration program is large; in 
addition to working with the tribes, Reclamation also works with the 
states of California and Oregon, Trinity County, power companies; 
Central Valley water districts; other federal bureaus, and numerous 
private landowners along the Trinity River. The Department believes 
that, given this broad range of interests, it is important for the 
effectiveness of the program for the Federal role to be maintained. 
While we consider Hoopa Valley Tribe an important partner in the 
Trinity River Restoration, we must be mindful of the Federal 
responsibility to a broad range of stakeholders in the basin.
Conclusion
    While we appreciate the effort made to address some of the concerns 
raised by the Department two years ago, we have significant concerns 
with the bill. We would like to continue to work with this Committee 
and Tribes to expand compacting opportunities and improve our program.
    On a broader note, I would like to reiterate this Administration's 
commitment to restoring the integrity of the government-to-government 
relationship with Tribes. Many challenges face our Native American 
communities. This Administration is committed to working with this 
Committee and with Tribes so that, together, we can create 
opportunities for these communities to thrive and flourish.
    Mr. Chairman, this concludes my statement and I will be happy to 
answer any questions you may have.
                                 ______
                                 
    The Chairman. Thank you. Do either of the other gentleman 
want to speak? All right. OK. All right. Then let me ask you 
the first question, Ms. Davis.
    Ms. Davis. Sure.
    The Chairman. Title V authorizes Indian tribes to invest 
Indian Health Service funds using the prudent investment 
standard. Would you please explain why this same standard 
should not apply to Indian tribes.
    Ms. Davis. Certainly, Mr. Chairman. I appreciate the 
question. I think that we do recognize that that is the 
standard in Title V for IHS, and I think that we do retain some 
concern on the part of the Department with regard to 
investment, that we are just not entirely comfortable with that 
standard. We would welcome working with you on that and trying 
to work this through a little bit more. Again, we do recognize 
that that is the standard that is utilized under Title V.
    The Chairman. All right. We appreciate that. Would you 
please explain the difference between the ``clearly 
demonstrating the validity of the grounds standard'' and the 
``clear and convincing standard'' used at hearings. Also, 
please explain why different burden of proof should apply to 
the Department of the Interior than the one used by the Indian 
Health Service.
    Ms. Davis. Mr. Chairman, Mr. Skibine administers this 
program for the Assistant Secretary, Indian Affairs. I am going 
to defer to him, if that is OK, on this question.
    The Chairman. Sure. Sure. We have identified him for the 
record.
    Mr. Skibine. Thank you, Mr. Chairman. We believe that the 
standard that should be used is; that the standard that is in 
the bill, which is clear and convincing, is a higher standard 
that is somewhat indefinite, and we don't think it is 
appropriate for the issues that are relevant to self-governance 
compacts. In general, the clear and convincing evidence 
standard would be higher, more difficult to implement, and it 
appears in several sections of the bill. One of the sections, 
for instance, is the reassumption of programs. We are concerned 
that making it more difficult to reassume program by having a 
much higher standard would be a detriment to not only the 
government, but to the tribes also, to the beneficiaries.
    I am saying that because, in general, when we administer 
these programs, we do not want to reassume our programs, we do 
not want to, well, to reassume programs because often do not 
have the resources to administer reassumed programs. If we have 
to, and we have done so in very, very few cases, then it 
becomes imperative that we be able to do so if there is 
evidence that the tribe can no longer run that particular 
program. By imposing a higher standard, which is clear and 
convincing, and making it harder to reassume a program where 
there is a danger to funds or to the safety or people, we 
believe that it will not be beneficiary, especially since we do 
that in so few instances. It is only when it is absolutely 
necessary that we have done that. So we are concerned with 
having a higher standard for reassumption, for instance.
    The Chairman. Have any tribes ever lost all their self-
governance funds due to investments in anything other than 
government securities?
    Mr. Skibine. Well, I am told that has happened, but I am 
not really prepared to discuss the specifics of----
    The Chairman. Well, if it does happen, then did the 
Department provide replacement funds?
    Mr. Skibine. No.
    The Chairman. No. OK. That concludes my questions. Mr. 
Hastings?
    Mr. Hastings. Thank you, Mr. Chairman. Ms. Davis, welcome 
to the Committee. You alluded in your written statement to 
concerns that are raised by the Department of the Interior on 
similar legislation. Let me be at least specific as it relates 
to liability when the Interior was here several years ago, and 
I will quote their testimony. ``Poses problems with regard to 
appropriate management of Federal funding and programs could 
ultimately end up costing taxpayers more to fund programs and 
potentially increases liability on the part of the Federal 
Government''. So that is the statement that was made there. 
Question: Is this issue resolved in the bill before us today?
    Ms. Davis. Thank you for the question, Mr. Hastings. Let me 
first say that, I mean, quite obviously this is new 
legislation, and we are a new Administration and we are looking 
at everything with fresh eyes. I think it is fair to say that 
we retain some concern about management of Federal funding and 
programs and potential liability. I think this is one of the 
issues that we would like to work with the Committee on and I 
feel confident that we can work with the Committee on and come 
to resolution, so I am uncomfortable sort of, you know, making 
a precise characterization about our concerns, same or 
different, again because this is a new bill and we really have 
taken a fresh look at it.
    Mr. Hastings. I mean, the point, all I am saying is that, I 
wasn't trying to point figures, I was just simply saying that 
Interior said last time there is a problem with liability. You 
are acknowledging that there is a problem. I mean, I am 
assuming that, you know, the Department wanted to work with us 
as I hope the Department would want to work with us on 
anything. So you are suggesting that there are at least some 
concerns with liability and you want to work with us. Is that a 
fair statement?
    Ms. Davis. Yes, that is a fair statement. I mean, I think 
that that is addressed in my testimony, and that is a fair 
statement. Yes.
    Mr. Hastings. OK. Good. Let me then, again, always with the 
assumption you want to work with us----
    Ms. Davis. Of course.
    Mr. Hastings.--there is the issue of whether if there is a 
problem and then the Department reassumes control if there is a 
level of gross mismanagement. Now, in that regard, where is the 
liability of the Federal Government in that situation? You 
follow what I am getting at? In other words, you have that 
level, there are some actions that were taken, you take it over 
because there was gross mismanagement, and at what point is the 
Federal Government liable on that under this bill, or is that 
something you want to work with us on?
    Ms. Davis. For me, it is an open question. I mean, George--
--
    Mr. Skibine. I am not sure exactly where--if there is a 
gross mismanagement then the government reassumes the program.
    Mr. Hastings. Right, and what is the liability under that 
assumption prior--you know, assuming there was gross 
mismanagement that led you to take over, where is the liability 
to the Federal Government prior to taking it over?
    Mr. Skibine. No. I am not sure where that would be. That 
would be a question for our lawyers to answer, but essentially, 
if we are becoming aware that there is mismanagement and we 
reassume the program, there would be no liability on the 
government for what happens beforehand.
    Mr. Hastings. I know lawyers answer a lot of things. If you 
could get back to us specifically on that?
    Mr. Skibine. OK.
    Ms. Davis. We would be happy to, sir.
    Mr. Hastings. I would certainly appreciate it. That is all 
I have, Mr. Chairman. Thank you.
    The Chairman. The gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. First of all, I want 
to welcome the witnesses. Ms. Davis, you are very welcome here 
and you have a great reputation of concern and care for our 
Native Americans. Mr. Skibine, we have known each other, as 
young as you are, for a long time and appreciate all the great 
work that you have done. Mr. Rever, thank you again for your 
concern and interest for justice for our Native Americans. All 
of you deserve a great deal of credit. I have just a very 
generic question. Is it the Administration's hope that we can 
reach accommodation among the tribes, the Congress and the 
Administration that will serve the needs of all those involved? 
I, myself feel for the first time some interest on the part of 
the Administration of trying to do that. Is that reading the 
Administration correctly?
    Ms. Davis. Yes, sir, it is our hope, and I believe I could 
even say it is our intention that we find a path forward on 
this legislation that works, you know, for the tribes, most 
importantly, for the Committee and for the Administration. We 
certainly are committed to working with you toward that end.
    Mr. Kildee. I appreciate that. You know, I appreciate 
sometimes the little things. The fact that you put the tribes 
first, right. It is a question of attitude. Our obligation 
under the Constitution, Article I, Section 8, which you 
referred to gives us enormous responsibility to make sure that 
we actively work with that sovereignty of the tribes. I commend 
the Administration for what they are doing and commend all 
three of you for your labor of love in this whole area and 
labor of law. Thank you very much, Mr. Chairman.
    The Chairman. Gentlelady from Wyoming, Ms. Lummis.
    Ms. Lummis. Well, thank you, Mr. Chairman. I want to 
commend the sponsor of the bill, Mr. Boren, for providing for 
further self-governance for Indian tribes. In my view, the 
tribes that I am familiar with are ready for that and find the 
layers of bureaucracy frustrating. After my visits with them, 
I, too, find them frustrating. You know, it is frustrating 
enough to deal with the various bureaucracies that non-Indians 
deal with, but then you add that extra layer of bureaucracy 
under Indian administration of Federal law and it is just 
exponentially more complicated, so my compliments, Mr. Boren. 
We do want to do it right.
    When I was meeting with the Palestinian Authority in 
January it occurred to me that when there was rampant 
corruption within the Palestinian Authority, they were not 
receiving IMF, or USAID, or any other type of aid directly, 
they were receiving it through a receiver, someone who would 
make sure that it didn't go to corrupt purposes, but for the 
purposes as intended. The current head of the Palestinian 
Authority has proven to be so capable of meeting out corruption 
that we now send monies directly to the Palestinian Authority, 
as does the IMF. I wonder if there is something analogous here, 
and I am just thinking out loud, whether if, to address Mr. 
Hastings concern here, that Federal funds that go to a tribe 
that has, you know, an exemplary track record of the funds 
going to the appropriate purpose, you know, that it just goes 
there rather than having some sort of intermediary, but where 
there is a tribe that is not, does not have a similar track 
record, that maybe there could be some sort of intermediary. Do 
you have any comment on that? As I said, I am just thinking out 
loud here. Thank you.
    Ms. Davis. Thank you for the question. I think I would note 
that in Title IV in the self-governance compacts that we 
execute with tribes, that the tribes or tribal organizations 
must complete a planning phase and show financial stability, 
and financial management capacity over a period of three years, 
you know, to be able to enter into these compacts and undertake 
these programs, so I think that may be part of an answer that 
you are looking for. I think what I am suggesting is that, you 
know, there is, you know, appropriate oversight of use of 
Federal funds, certainly in that area. George, I don't know if 
you would care to----
    Mr. Skibine. The tribes perform an audit, but really, the 
concept of self-governance is that the funds right now go 
through the Office of Self-Governance, which is administered by 
Sherry Freeman who stands behind me, and essentially then she 
disburses the money to these tribes. These tribes can 
administer their programs, they essentially can redesign the 
program. It is really the notion that tribes are sovereign 
entities and self-governing tribes, and essentially it is what 
the government's policy is. Now, we have limited so there was a 
yearly audit, there are trust evaluations performed by the 
Office of Special Trustee for Trust Programs, but beyond that, 
I think if there are very limited circumstances for reassuming 
those programs.
    The fact that there have been so few I think is an 
indication of how successful this has been and how successful 
the tribes have been to keep clean audits, you know? So I don't 
think that is really--that really is not a big concern at this 
point. If I may add, I think that the legislation two years ago 
was fundamentally different than the one today because it 
sought to make mandatory compacting with non-BIA agencies. This 
is no longer the case here, except for the demonstration 
program, so it is a vastly different legislation that has 
really taken care of a lot of the government's concern. Where 
we have seen an issue is in construction programs mostly 
because the construction programs also apply to construction 
programs not only by BIA, by Mr. Rever, but by some of these 
other BIA agencies.
    Ms. Lummis. Mr. Chairman, I might comment that our U.S. 
Department of Defense has never had a clean audit, ever, so 
these issues are not, you know, these issues are not unique to 
sovereign nations, they are true within our own government. I 
yield back.
    The Chairman. The gentleman from Oklahoma, Mr. Boren, the 
sponsor of this legislation.
    Mr. Boren. Thank you, Mr. Chairman. I ask, first, unanimous 
consent to put into the record a letter of support from the 
Mille Lacs Band of, I want to say this right, Ojibwe Tribe. I 
want to pass that down if unanimous consent.
    The Chairman. Without objection. If you pronounce it 
correctly, it will be made part of the record.
    Mr. Boren. OK. Yes. Hope that is right. I also wanted to 
let everyone know here on the Committee that we just received 
another co-sponsorship of this legislation. The other Co-Chair 
of the Native American Caucus, Tom Cole, has joined Mr. Kildee 
supporting this. We have bipartisan support of this 
legislation. As we all know, he is a member of the Chickasaw 
Nation. A couple of things I wanted to point out in the 
beginning. First, I want to say thank you all. We have been 
sitting down at the table for a long time, particularly our 
staff and you all. I want to go through a couple of things. We 
have been made aware of the NEPA concerns and do intend to 
address them in this legislation as we move forward.
    I also think that there is an important conversation to be 
had on the non-BIA programs, but we have decided to take out 
the demonstration projects completely in the substitute. Also, 
there continues to be negotiations on the construction 
provisions, and it is my hope and intention to see if we can 
work something out there as we kind of move forward toward our 
end goal. What I would like, if you all don't mind, if these 
are your primary concerns or there are other concerns, maybe in 
the next few weeks if you could submit those to us in writing 
so we can get--it is my hope, and I have to talk to the 
Chairman and others about a date when we can start marking up 
this legislation. So maybe by, yes, like next Friday maybe get 
some of that to us in writing. It would be great.
    Ms. Davis. We would be happy to.
    Mr. Boren. OK. Great. Thank you so much. I have a couple of 
questions. One of them, the Department has expressed 
reservations about consulting with Indian tribes prior to 
revising, amending or requiring additional terms in funding 
agreements. Can you please state what these concerns are and 
under what circumstances the Department believes that the 
Secretary should be able to unilaterally alter funding 
agreements?
    Ms. Davis. I will let Mr. Skibine speak to that, if that is 
OK.
    Mr. Boren. OK.
    Mr. Skibine. I think that we consult with, certainly you 
consult with Indian tribes on funding agreements. I am not sure 
exactly what the issue are. We have sent out a guidance every 
year on what the negotiations are going to be like, so I am not 
sure exactly what the concern is.
    Mr. Boren. Let me just ask under what circumstances would 
you unilaterally alter anything? You know, there are a lot of 
different steps in the alteration process, whether it is having 
to come all the way to Congress to change something versus just 
something going on in the Department. Under what circumstances 
would you all alter anything, or would you?
    Mr. Skibine. Alter what?
    Mr. Boren. Any of the agreements----
    Mr. Skibine. I see.
    Mr. Boren [continuing]. Without tribal consultation.
    Mr. Skibine. OK.
    Mr. Boren. The agreements that you have with the tribes, if 
you all just unilaterally, the Secretary just says we are going 
to change this, we haven't talked to X tribe, but we are going 
to just do this.
    Mr. Skibine. You are talking about, it is in the bill, it 
is talk about unilateral changes.
    Mr. Boren. Correct.
    Mr. Skibine. OK. Essentially, I think that if there is a 
change in Federal law, in law, or that would require us to 
change the agreements.
    Mr. Boren. But no other reason than a change in Federal law 
would you all do any unilateral changing without talking to 
tribes.
    Mr. Skibine. That is correct. Well, that is part of Federal 
law, if there is a Court decision that requires us to do 
something. Right.
    Mr. Boren. OK. Another question I have. I have heard from 
some tribes in my district, particularly the Cherokee Nation, 
and this one kind of troubled me, it is in my district, that 
during negotiations of subsequent funding agreements there have 
been instances where DOI has withheld money that should be paid 
out to the tribe under current agreements as a way to force the 
tribes to concede to the Department's position to their 
subsequent agreement. What legal authority allows you all to do 
this? I think it is out of the Office of Self-Governance. This 
did happen in a situation with the Cherokee Nation, and I have 
been briefed on it. That, to me, seems like, you know, I am 
here, a tribe, and you are holding this over me, it seems kind 
of an unequal situation. Did that happen, and is that legal? I 
mean, I don't know. Can you do that?
    Ms. Davis. I think, not being familiar with the operational 
specifics of the program, we would like to be able to get back 
to you with a written response, if that is acceptable.
    Mr. Boren. Not just on the specific, but, I mean, in the 
future as we----
    Ms. Davis. Understood.
    Mr. Boren. Just a more of a general question that this one 
specific concern did that I had a concern about. That is 
something that I definitely want. I am hitting a red light 
here. Mr. Chairman, I have a lot of other questions. Would it 
be best if we would submit these to you in writing, and if you 
could come up as we move forward over the next few weeks, maybe 
we could work together. Again, I do want to say thank you all 
so much for your efforts, for the Administration for working 
with us, and working with the tribes. As Mr. Kildee mentioned, 
there is a new breath of fresh air here. Thank you.
    Ms. Davis. We would be happy to answer.
    The Chairman. The gentlelady from California, Ms. 
Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. I have another area 
of concern with the Native American Bureau of Indian Affairs 
and Native Americans in terms of two areas. One is health 
services' mental health service delivery because I understand 
from prior hearings that there is a very high percentage of 
suicide or suicide attempts, and alcohol and drug use, 
unemployment, et cetera, and what is happening that the Bureau 
is doing to work with other agencies to address that? Is this 
self-reliance, self-governance not focusing enough on youth, on 
the unemployment, on the mental health issues? I have a grave 
concern also on the delivery of water, clean water, to many of 
the tribes. So those are the main issues that I have that I 
would like to see addressed, and since I am Chair of the 
Subcommittee on Water and Power, those have come up repeatedly, 
that there is not enough infrastructure delivery to some of the 
tribes because they are so spread out. What are we doing about 
it?
    Ms. Davis. Let me speak first to your first question about 
mental health. I will ask Mr. Skibine to fill in if he wishes. 
Let me just say that we are working directly, and have been 
working directly, with Indian Health Services and both 
Secretaries, actually. Secretary Sebelius and Secretary Salazar 
are engaged and concerned and working together on this issue 
between the Departments.
    Mrs. Napolitano. How closely, though, because I never heard 
anybody from HHS. Because I work directly with mental health 
services because I am Co-Chair of the Mental Health Caucus 
also. I have never even heard any mention of Native American 
issues coming up. That bothers me.
    Ms. Davis. Well, I can't speak to why that is. I can tell 
you that the Secretaries have spoken, that we have a working 
group between the Deputies and that this is an issue that is 
the programs, and, you know, the coordination, and the better 
coordination of the programs is addressed. We would certainly 
be happy to get you more information about what we are doing 
currently.
    Mrs. Napolitano. I would appreciate it.
    Ms. Davis. I am going to have to defer on the water 
programs. I am not too deeply involved in issues of Indian 
water rights and delivery of clean water.
    Mrs. Napolitano. Well, not necessarily water rights, but 
clean water delivery, because a lot of them may have water that 
is contaminated. We were at the Grand Canyon, for instance, and 
there is an issue of the uranium tailing contamination for some 
of the tribes that are there, of the water that has a lot of 
selenium. Is that hurtful? Is the HHS looking at the impact 
this may have on the lives of the tribes that are taking this 
contaminated, or high salinity, or high infected water?
    Ms. Davis. I regret that I don't know the direct answer to 
your question, Madam Chairwoman, but I would be--Mr. Skibine 
may want to fill in.
    Mrs. Napolitano. Yes. I would like to make sure that this 
is part of what you discuss when you have your self-governance. 
Ensure that some of the folks are given the tools to be able to 
move forward on getting these things resolved. Sir?
    Mr. Skibine. OK. We will look into it, but my impression is 
that we at the Department of the Interior are really not 
involved in the health issues that IHS and HHS look into, so if 
it is addressed under----
    Mrs. Napolitano. Why not?
    Mr. Skibine. Well, because it is not our program, it is 
their program.
    Mrs. Napolitano. But do you not work as agencies 
cooperating with each other to address these issues?
    Mr. Skibine. To some extent, yes. I would have to look at 
how much they are involving us in that issue.
    Mrs. Napolitano. Well, I would like to see more involvement 
because we are saying, OK, you take care of it over there. You 
take care of it is not working with you to be able to bring 
forth some of the solutions for the delivery of the service to 
the Native Americans. That should not be. We should be working 
in tandem. Am I correct, sir? Anybody? Thank you.
    Ms. Davis. Thank you.
    Mrs. Napolitano. I mean, you know, agencies don't talk to 
each other. That has got to stop because what is hurting is the 
Native American tribes who don't have access, who don't have 
information, who don't have knowledge of where to go and what 
to ask for. So if you don't help them in the deliverance and in 
your self-governance to make sure you introduce it there to be 
able to have the agencies be part of the solution, then we are 
still going to be back here saying, OK, we have our finger in 
our ear, how do we do this?
    Mr. Skibine. We will take a look at the issue of the water 
delivery system and we will get back to you.
    Mrs. Napolitano. Mr. Chair, I would like to have that 
report to the Subcommittee and to the full Committee because I 
think this is an important issue for the Native Americans. 
Thank you, Mr. Chair.
    The Chairman. Gentleman from CNMI, Mr. Sablan. Yes. You are 
recognized.
    Mrs. Napolitano. Thank you, Mr. Sablan. I certainly can use 
it. The current staffing, can the current staff handle Title IV 
compliance? Does it meet the needs to handle Title V 
compliance? Ms. Davis?
    Ms. Davis. I think we are comfortable with current staffing 
to handle the needs of Title IV compliance, and I think that we 
frankly have some concerns about the applicability of the 
specifics of Title V to the Department of the Interior's wide 
breadth of mission and agency responsibilities and that is one 
of the things that we would like to work with the Committee on.
    Mrs. Napolitano. And what additional human resources would 
the Bureau of Indian Affairs need in order to oversee 
compliance in Title V requirements from the Indian Health 
Service to the Bureau of Indian Affairs?
    Ms. Davis. I think it is probably best if we ask if we can 
get back to you with a written response on that. I think we 
need some additional----
    Mrs. Napolitano. Would appreciate it, ma'am. And how much 
would these new standards cost? Is there the funding to be able 
to deliver them?
    Ms. Davis. Similarly, I think we are, you know, undertaking 
that analysis, but it would be better if we responded in 
writing to you, ma'am.
    Mrs. Napolitano. Then, does it make sense for the 
compliance and agreement requirements to be applied to the 
issues of the BIA, that is, the natural resources management, 
et cetera.
    Ms. Davis. I think that is the crux of our issue. I think 
you have identified it.
    Mrs. Napolitano. Mr. Chair, I think that should be 
something that we need to look at. Thank you, Mr. Chair.
    The Chairman. Any further questions from Members? If not, 
we thank you for being with us again. Thank you. Chair will now 
call panel number two composed of the following individuals: 
The Honorable Gregory E. Pyle, the Chief, the Choctaw Nation of 
Oklahoma, Durant, Oklahoma; The Honorable Marcus D. Levings, 
the Chairman, the Three Affiliated Tribes, New Town, North 
Dakota; Mr. Robert Keith, Chairman of the Board, Kawerak, Inc., 
Nome, Alaska; and Mr. Donovan Gomez, the Tribal Programs 
Administrator, Taos Pueblo, Taos, New Mexico. Gentlemen, we 
welcome you to the Committee on Natural Resources. We do have 
your prepared testimonies. They will all be made part of the 
record as if actually read. You may proceed as you desire 
starting with you, Chief Pyle.

STATEMENT OF THE HON. GREGORY E. PYLE, CHIEF, CHOCTAW NATION OF 
                   OKLAHOMA, DURANT, OKLAHOMA

    Mr. Pyle. We really appreciate having this time to come up 
and voice our concerns. We recognize our Congressman Boren--he 
is from Oklahoma, the great state, Oklahoma is the Choctaw word 
meaning land of the red people--and his leadership in 
introducing H.R. 4347. He and his staff have worked diligently 
on behalf of tribal governments throughout eastern Oklahoma, 
and we are greatly appreciative of his efforts for tribal self-
governance authorities throughout America. Amendments to Title 
IV are essential, and include many benefits for tribes. The 
Title IV amendments create consistency between the Title IV 
Self-Governance Initiative of the Department of the Interior 
and Title V of the Self-Governance Initiative in the Department 
of HHS.
    Almost all the proposed Title IV amendments have already 
proven successful in the health care<plus-minus> content under 
Title V. H.R. 4347 minimizes some of the existing 
administrative burdens and advances self-governance 
opportunities with the DOI agencies. Self-governance has 
dramatically improved the efficiency, accountability and 
effectiveness of programs and services for the tribes and their 
citizens. H.R. 4347 would further refine and improve the self-
governance program of the DOI. Self-governance has been a huge 
success with the Choctaw Nation. For example, we have managed 
our entire health care delivery system since 1985, initially, 
through a 638 contract under Title I, and since 1994, through a 
self-governance compact under Title V of the ISDEAA.
    Our health care delivery system is comprised of a 37 bed 
hospital, eight outpatient clinics, two substance abuse 
inpatient centers and a wide range of preventative programs, 
including nutrition counseling and a diabetes wellness center. 
These programs are all JCAHCO accredited. We strongly urge the 
enactment of H.R. 4347. In conclusion, I would like to thank 
the Committee for holding this important hearing on tribal 
self-governance, and I hope this Congress passes this. One 
quick side note. For many years the U.S. Government has 
appropriated dollars. We run our system in a very business 
manner, we don't allow politics in the system, and we were able 
to double, in many instances, the amount of services came out. 
It is the only hospital in 50 miles.
    Today we have such things as a helicopter service. Before, 
people simply died because they couldn't get the hospital. It 
is a three hour drive over the mountains in eastern Oklahoma. 
Those are very important, but the real importance is the side 
effect. Since 1985, we have learned how to manage with 
consultants and people that have, we call gray hair, lots of 
experience in business. Since then, we have started six 
business, several thousand employees, created jobs for people. 
Now the children can actually go to school and hold their heads 
up, to be successful. Their parents can hold their heads up 
because they have a job. That is the residual.
    That is not just Indian Health and Bureau Indian Affairs, 
that is residual to the tribe. Learning how to manage. It was a 
learning experience for us, and that is the real side effect. 
We have thousands of people working that would not be. And 
actually, getting government assistance, today they are not 
getting government assistance. They are being very proud. We 
want to appreciate you so much. Thank you, and God bless.
    The Chairman. Thank you very much, Chief Pyle. Chairman 
Levings?
    [The prepared statement of Mr. Pyle follows:]

    Statement of Gregory E. Pyle, Chief, Choctaw Nation of Oklahoma

    Halito. My name is Gregory E. Pyle and I am the Chief of the 
Choctaw Nation of Oklahoma. I am pleased to be here today to provide 
formal testimony before the Committee on this very important Tribal 
Self-Governance initiative.
    First, I would like to acknowledge and personally thank Congressman 
Dan Boren, also from the great State of Oklahoma, for his leadership in 
introducing H.R. 4347, the ``Department of Interior Tribal Self-
Governance Act of 2009''. He and his staff have worked diligently on 
behalf of Tribal governments and we are greatly appreciative of his 
efforts to advance Tribal self-governing authorities under H.R. 4347. 
This important piece of legislation enhances Tribes' abilities and 
Self-Governance opportunities by amending Title IV of the Indian Self-
Determination and Education Assistance Act (ISDEAA) (P.L. 93-638 as 
amended). I am here today to urge you to promptly take action to enact 
H.R. 4347.
Benefits of Title IV Amendments
    The Title IV amendments create consistency between the Title IV 
Self-Governance initiative in the Department of the Interior (DOI) and 
the Title V Self-Governance initiative in the Department of Health and 
Human Services (DHHS). Since its enactment in 2000, Title V has 
provided a solid foundation for implementing government-to-government 
agreements and has served as an excellent vehicle in advancing health 
care for American Indian and Alaska Native people. Specifically, Title 
V directly addressed many of the problems that emerged during the Title 
IV rulemaking process. As a result, many of the improvements included 
in Title V are unfortunately not included in Title IV. Tribes like 
Choctaw Nation, who operate Self-Governance programs under both Title 
IV and Title V, are left with two different sets of administrative 
requirements, one for IHS and one for DOI.
    H.R. 4347 provides further consistency and clarity to bring 
implementation of Self-Governance under Title IV in line with Title V 
of the Act. Further, H.R. 4347 minimizes some of the existing 
administrative burdens and advances Self-Governance opportunities 
within other DOI agencies.
    The Title IV amendments have long been a top legislative priority 
of Self-Governance Tribal leaders. As a matter of fact, Tribal leaders 
and staff have worked with both the Administration and Congress over 
the past decade on this legislative effort. Enactment of these Title IV 
amendments would be a significant landmark to advance Tribal self-
reliance and would positively impact the 260 Tribes currently 
participating in Self-Governance within the DOI as well as those Tribes 
considering Self-Governance as an option.
Reasons for Self-Governance
    Under Title IV, Tribes have responsibility for management and 
operation of numerous DOI programs such as education, roads, housing, 
law enforcement, Tribal courts and natural resources, just to name a 
few. The benefits of managing these programs under a Self-Governance 
agreement include:
    <bullet>  Improve the quality & quantity of services provided to 
Tribal citizens;
    <bullet>  Recognize Tribe's right to determine priorities, redesign 
and create new programs to meet local needs;
    <bullet>  Formalize relations between the United States and Indian 
Tribes on government-to-government basis as provided for in the U.S. 
Constitution;
    <bullet>  Promote greater social, economic, political, cultural 
stability and self-sufficiency among Indian tribes;
    <bullet>  Establish better fiscal accountability through expanded 
Tribal Governmental decision making authority;
    <bullet>  Institute administrative cost-efficiencies through 
reduced bureaucratic burdens and streamline decision-making authority; 
and
    <bullet>  Change roles of the Federal Departments and agencies 
serving Indian Tribes by shifting their responsibilities from day-to-
day management of Tribal affairs to that of Protectors and Advocates of 
Tribal interests.
    Self-Governance is not just another federal program. Rather, Self-
Governance is the exercise of Tribal sovereignty through genuine 
decision-making power. Self-Governance is about Tribal empowerment, 
accountability, responsibility and self-sufficiency. Since enactment of 
the initial 7 Self-Governance agreements under DOI Self-Governance in 
1991, the total number of Tribes participating in DOI Self-Governance 
under Title IV has steadily increased to a total of 260 Tribes today. 
Self-Governance works because it places management responsibility in 
the hands of those who care most about seeing Tribal programs succeed 
and services to citizens improved--the Tribal government itself.
Choctaw Nation--Self-Governance Best Practices
    The Choctaw Nation of Oklahoma is federally-recognized by the 
United States government through the Secretary of the Interior. The 
Nation consists of ten and one-half counties in the southeastern part 
of Oklahoma-- bounded on the east by the State of Arkansas, on the 
south by the Red River, on the north by the South Canadian, Canadian 
and Arkansas Rivers. The western boundary generally follows a line 
slightly west of Durant, then due north to the South Canadian River.
    The Tribe is governed by the Choctaw Nation Constitution which was 
ratified by the people on June 9, 1984. The Constitution provides for 
an Executive, a Legislative and a Judicial branch of government. The 
legislative authority of the Tribe is vested in the Tribal Council, 
which consists of 12 members. Members of the Tribal Council are elected 
by the Choctaw people. The Tribal Council is responsible for adopting 
rules and regulations which govern the Choctaw Nation, for approving 
all budgets, making decisions concerning the management of Tribal 
property, and all other legislative matters. The Tribal Council Members 
are the voice and representation of the Choctaw people in the Tribal 
government.
    The Choctaw Nation of Oklahoma believes that responsibility for 
achieving self-sufficiency rests with the governing body of the Tribe. 
It is the Tribal Council's responsibility to assist the community in 
its ability to implement an economic development strategy and to plan, 
organize, and direct Tribal resources in a comprehensive manner which 
results in self-sufficiency. The Tribal Council recognizes the need to 
strengthen the Nation's economy, with primary efforts being focused on 
the creation of additional job opportunities through promotion and 
development. By planning and implementing its own programs and building 
a strong economic base, the Choctaw Nation applies its own fiscal, 
natural, and human resources to develop self-sufficiency. These efforts 
can only succeed through strong governance, sound economic development, 
and positive social development.
    I have served as the Chief of the Choctaw Nation since 1997. In 
this capacity, I have witnessed and been part of the significant growth 
and development of all programs and services provided to our citizens 
and I am proud of our strong history and governance capability.
    The Choctaw Nation operates under Self-Governance agreements with 
both DOI--Bureau of Indian Affairs (BIA) and HHS--Indian Health 
Services (IHS) programs. Because of the flexibilities and authorities 
provided under Self-Governance, we have numerous success stories and 
best practices that could be shared. However, I would like to talk 
briefly and highlight our Choctaw Nation Health Services Authority, the 
best rural health care system in America.
    We provide health care services to all American Indians/Alaska 
Natives who present at our facilities. We have managed our entire 
health delivery system since 1985, initially through a 638 contract 
under Title I of the ISDEAA, and since 1994 through a Self-Governance 
Compact under Title V of the ISDEAA. Our health care delivery system is 
comprised of a 37-bed hospital, 8 out-patient clinics, 2 substance 
abuse in-patient centers and a wide range of preventative programs 
including nutrition counseling and a diabetes wellness center. All 
these programs are JCAHCO accredited. Our emergency room is the only ER 
service within a 50 mile radius. It is a life saver for the community, 
for Indian and Non-Indian. The Choctaw Nation Health Services 
Authority's mission statement is ``To provide the highest quality 
health care to the people we serve.'' Self-Governance has been 
instrumental in making this Mission become a reality.
Conclusion
    In conclusion, I would like to thank this Committee for holding 
this important hearing on Tribal Self-Governance. I sincerely hope that 
this Congress will enact H.R. 4347, to further assist us in achieving 
our mission and goals.
                                 ______
                                 

   STATEMENT OF THE HON. MARCUS D. LEVINGS, CHAIRMAN, THREE 
           AFFILIATED TRIBES, NEW TOWN, NORTH DAKOTA

    Mr. Levings. Good morning. Thank you, Chairman Rahall, and 
Committee Members for the opportunity to be here today. My name 
is Marcus Dominick Levings, Eh-Bah-Dah-Gish, White Headed 
Eagle, Chairman of the Three Affiliated Tribes, Mandan, Hidatsa 
and Arikara Nation of the Fort Berthold Indian Reservation. I 
am here to express the Three Affiliated Tribes' strong support 
for H.R. 4347, the Department of the Interior Tribal Self-
Governance Act. We recognize the need to expand and improve 
Title IV of the Indian Self-Determination Act, the self-
governance program within Interior. Even though we are not 
currently a self-governance tribe, this bill would also make 
significant and much needed changes to Title I of the Act under 
which the Three Affiliated Tribes currently contract a wide 
range of programs from both the Indian Health Service and the 
Bureau of Indian Affairs.
    My testimony will focus on the Title I provision proposed 
by H.R. 4347. The Three Affiliated Tribes' health care 
services, law enforcement, realty services, road construction 
and maintenance, and water treatment and water distribution are 
services under Title I contracts with Indian Health Service, 
Bureau of Indian Affairs and the Bureau of Reclamation. Tribe 
members have seen dramatic improvements in services since the 
tribes assumed control of these services. Just as Congress 
envisioned, placing the Federal Indian programs in the hands of 
the local tribal people being served has enhanced 
responsiveness to local needs and power to local tribal 
government and reduced the influence of the Federal 
bureaucracies over the day-to-day decisions, yet, Title I 
contracting could even be better.
    Current Title I continues to allow excessive bureaucratic 
oversight and impose a lack of flexibility and cost 
effectiveness. The Title I amendments in H.R. 4347 would 
enhance the tribes' ability to provide essential government 
services in a way that best meets the specific social and 
cultural needs of the Ft. Berthold Reservation. The key changes 
are as follows: Section 101 would amend the definition of self-
determination contract to make clear that these government-to-
government agreements are not ordinary procurement contracts 
and are not subject to any Federal procurement laws. This 
clarification is necessary since the BIA, and IHS and other 
Federal agencies have taken the position that these contracts 
between sovereigns are just like agreements with private 
contractors.
    Section 102 would impose a strict burden of proof on 
agencies to show on appeal that their decisions are supported 
by clear and convincing evidence. This standard is not only in 
accordance with that in current Title V of the Act but is 
familiar standard applied by Courts, unlike the current 
standard requiring the Secretary to clearly demonstrate the 
validity of the grounds for his or her decision. Section 103 
would expand Title I's tribe authority to redesign and 
consolidate programs and services similar to Titles IV and V so 
long as the effect would not be to deny service to otherwise 
eligible persons. This provision would allow us to tailor 
programs and services to meet tribal priorities, the essence of 
self-determination with even less unnecessary Federal 
involvement.
    Section 104 would codify the long-standing 50 percent rule 
under which the Three Affiliated Tribes can charge up to 50 
percent of its contract cost incurred administering Federal 
programs under Title I agreements to the indirect cost pool 
without burdensome documentation and oversight. Finally, 
Section 105 would clarify that any additional contract terms 
beyond the mandatory statutory model contract terms cannot be 
unilaterally imposed unless they meet the strict declination 
standards in Section 102. These modest amendments would help 
balance the negotiating positions with tribal and Federal 
Governments, and help tribes target Federal and other resources 
where they are needed the most.
    The amendments would cost the Federal Government nothing, 
yet would enhance the efficiency and effectiveness of Federal 
programs for the benefit of the Three Affiliated Tribes, and 
other Title I tribes and the many enrolled members who rely on 
the government services which we provide. Although the Title I 
amendments to H.R. 4347 are the most immediate importance to 
the Three Affiliated Tribes, I want to make clear that we 
strongly support the entire bill, including the revisions to 
Title IV, the Department of the Interior Self-Governance 
Program. The Title IV amendments negotiated for several years 
would make the Title IV consistent with Title V, the IHS self-
governance legislation creating administrative efficiencies for 
tribes.
    Although the Three Affiliated Tribes is currently content 
with our Title I contracts, we would appreciate the future 
option to enter self-governance compacts and funding agreements 
with IHS and Interior that operate under the same set of rules 
at some point in the future. Like the Federal tribal 
government-to-government relationship itself, Title I has 
evolved since its initial enactment in 1975. The law needs to 
evolve again to reflect maturation and growing capacity of 
tribal governments carrying out self-determination contracts. 
The old provisions retaining obtrusive Federal oversight, 
limiting tribal redesign and consolidation authority are 
effects of an earlier era.
    The Three Affiliated Tribes, like many other tribal 
contractors, now administer multi-million dollar health care 
and other programs. H.R. 4347 would help our tribes and others 
diagnose and treat members, provide dental services, build and 
maintain roads and provide a host of other government services 
through its Title I contracts. Self-determination allows the 
Three Affiliated Tribes to prioritize their needs and plan our 
future in a way consistent with the tribes' distinct culture, 
traditions and institutions. I urge you to enact H.R. 4347 so 
that tribes and the Federal Government can build on the 
successes of the past 35 years and further tribal self-
determination and self-governance. Chairman Rahall, that 
concludes my prepared statements. I again thank you for the 
opportunity to present the views of the Three Affiliated Tribes 
of the Mandan, Hidatsa and Arikara. I would like to thank you, 
and yourself, and the Natural Resources Committee for this 
time. I would be happy to answer any questions you may have. 
Migwe'c. Thank you.
    The Chairman. Mr. Keith?
    [The prepared statement of Mr. Levings follows:]

     Statement of The Honorable Marcus D. Levings, Chairman, Three 
           Affiliated Tribes of the Fort Berthold Reservation

    Good morning. Thank you, Chairman Rahall and Committee members, for 
the opportunity to be here today. My Name is Marcus Dominick Levings, 
Eh-Bah-Dah-Gish, (Bald Eagle). I am the elected Tribal Chairman of the 
Three Affiliated Tribes of the Fort Berthold Indian Reservation.
    I am here to express the Three Affiliated Tribes' strong support 
for H.R. 4347, the Department of the Interior Tribal Self-Governance 
Act. We recognize the need to expand and improve Title IV of the Indian 
Self-Determination Act, the Self-Governance Program within Interior, 
even though we are not currently a self-governance tribe. But this bill 
would also make significant and much-needed changes to Title I of the 
Act, under which the Three Affiliated Tribes currently contract a wide 
range of programs from both the Indian Health Service and the Bureau of 
Indian Affairs. My testimony will focus on the Title I provisions 
proposed by H.R. 4347.
    The Three Affiliated Tribes provide health care services, law 
enforcement, realty services, road construction and maintenance, and 
other programs and services under Title I contracts with the Indian 
Health Service and Bureau of Indian Affairs. Tribal members have seen 
dramatic improvements in services since the Tribes assumed control of 
these services. Just as Congress envisioned, placing the federal Indian 
programs in the hands of the local tribal people being served has--
    <bullet>  enhanced responsiveness to local needs;
    <bullet>  empowered the local tribal government; and
    <bullet>  reduced the influence of the federal bureaucracies over 
day-to-day decisions.
    Yet Title I contracting could be even better. The current Title I 
continues to allow excessive bureaucratic oversight and impose a lack 
of flexibility and cost-effectiveness. The Title I amendments in H.R. 
4347 would enhance the Tribes' ability to provide essential 
governmental services in a way that best meets the specific social and 
cultural needs of the Fort Berthold Reservation community. The key 
changes are as follow:
    <bullet>  Section 101 would amend the definition of ``self-
determination contract'' to make clear that these government-to-
government agreements are not ordinary procurement contracts and are 
not subject to any federal procurement laws. This clarification is 
necessary since BIA and IHS (and other federal agencies) have taken the 
position that these contracts between sovereigns are just like 
agreements with private contractors.
    <bullet>  Section 102 would impose a strict burden of proof on the 
agencies to show, on appeal, that their decisions are supported by 
``clear and convincing evidence.'' This standard not only accords with 
that in the current Title V of the Act, but is a familiar standard 
applied by courts, unlike the current standard requiring the Secretary 
to ``clearly demonstrate[e] the validity of the grounds'' for his or 
her decision.
    <bullet>  Section 103 would expand Title I tribes' authority to 
redesign and consolidate programs and services, similar to Titles IV 
and V, so long as the effect would not be to deny service to otherwise 
eligible persons. This provision would allow us to tailor programs and 
services to meet tribal priorities--the essence of self-determination--
with even less unnecessary federal involvement.
    <bullet>  Section 104 would codify the longstanding ``50% rule,'' 
under which the Three Affiliated Tribes can charge up to 50% of its 
contract costs incurred in administering federal programs under Title I 
agreements to the indirect cost pool without burdensome documentation 
and oversight.
    <bullet>  Finally, Section 105 would clarify that any additional 
contract terms beyond the mandatory statutory model contract terms 
cannot be unilaterally imposed unless they meet the strict declination 
standards in section 102.
    These modest amendments would help balance the negotiating 
positions of tribal and federal governments, and help tribes target 
federal and other resources where they are needed most. The amendments 
would cost the federal government nothing, yet would enhance the 
efficiency and effectiveness of federal programs for the benefit of the 
Three Affiliated Tribes, the other Title I tribes and the many enrolled 
members who rely on the governmental services which we provide.
    Although the Title I amendments in H.R. 4347 are of the most 
immediate importance to the Three Affiliated Tribes, I want to make 
clear that we strongly support the entire bill, including the revisions 
to Title IV, the Department of the Interior Self-Governance Program. 
The Title IV amendments, negotiated over several years, would make 
Title IV consistent with Title V, the IHS self-governance legislation, 
creating administrative efficiencies for tribes. Although the Three 
Affiliated Tribes is currently content with our Title I contracts, we 
would appreciate the future option to enter Self-Governance compacts 
and funding agreements with IHS and Interior that operate under the 
same set of rules at some point in the future.
    Like the federal-tribal government-to-government relationship 
itself, Title I has evolved since its initial enactment in 1975. The 
law needs to evolve again to reflect the maturation and growing 
capacity of tribal governments carrying out self-determination 
contracts. The old provisions retaining obtrusive federal oversight and 
limiting tribal redesign and consolidation authority are artifacts of 
an earlier era. The Three Affiliated Tribes, like many other tribal 
contractors, now administer multi-million-dollar health care and other 
programs. H.R. 4347 would help our Tribes and others diagnose and treat 
members, provide dental services, build and maintain roads, and provide 
a host of other governmental services through its Title I contracts.
    Self-determination allows the Three Affiliated Tribes to prioritize 
our needs and plan our future in a way consistent with the Tribes' 
distinct culture, traditions, and institutions. I urge you to enact 
H.R. 4347 so that tribes and the federal government can build on the 
successes of the past 35 years and further tribal self-determination 
and self-governance.
    Chairman Rahall, that concludes my prepared statement and I again 
thank you for the opportunity to present the views of the Three 
Affiliated Tribes. I would like yourself and the Natural Resource 
Committee for this time and I would be happy to answer any questions 
you may have.
                                 ______
                                 

 STATEMENT OF THE HON. ROBERT KEITH, CHAIRMAN OF THE BOARD OF 
                  KAWERAK, INC., NOME, ALASKA

    Mr. Keith. Thank you for the opportunity to testify today 
on H.R. 4347, which aims to address some issues of deep and 
continuing concern for Alaskan Natives. My name is Robert 
Keith. I am the Chair of the Board of Directors for Kawerak, a 
regional tribal consortium serving 20 tribes from the Bering 
Straits region in northwest Alaska. I am also President of the 
Native Village of Elim and also serve on the Norton Sound 
Health Board and the Tribal Self-Governance Advisory Group. 
Kawerak is headquartered in Nome, Alaska, and we are the 
largest community in the Bering Straits region and serves as 
the principal transportation and service hub. Kawerak currently 
contracts to provide a wide range of Federal and state 
services, including almost all services previously provided by 
the Bureau of Indian Affairs.
    The Kawerak Board consists of the tribal president or 
tribal council designee from each of the 20 Federally 
recognized tribes in our region. Our service area includes 
Seward Peninsula, Norton Sound, St. Lawrence Island and Little 
Diomede. This region extends 230 miles north to south and 
covers 570 miles of coastline and includes an area of 26,000 
square miles. We have 9,300 people, of which 7,000 are Alaskan 
Native and Siberian Yupik and Central Yupik. We have an 
extremely high unemployment rate. Less than 40 percent of the 
population are part of the labor force in Nome. In villages, as 
many as 70 percent of adults are currently unemployed. It is 
not because they choose to be, but because there are no jobs 
available.
    Our people are highly skilled sustenance hunters and 
fisher. We remain heavily dependent on natural animal and fat 
resources for every day sustenance. Alaska Natives are one of 
the largest land owners in the State of Alaska, owning 12 
percent of the state, 44 million acres. 221 million acres of 
land owned by Federal Government in Alaska are not parks and 
refuges to us, they are our backyards. For millennia, our 
people have hunted, fished and lived on the lands that are now 
Federally owned. Our stewardship of these very same lands 
speaks for itself. If we had not taken pristine care of the 
land, it would not have been worth putting into parks and 
refuges. Our innate understanding of the land around us makes 
us perfect candidates for future management.
    When Title IV of the Indian Self-Determination Act, Public 
Law 93638, was passed in 1994, we thought it would be an open 
door to broader Native involvement in the parks and refuges of 
Alaska. Title IV authorized non-BIA Interior Department 
agencies to compact the tribes when particular program of 
Federal activity had a close geographical or cultural nexus to 
the tribe. Kawerak immediately applied to compact functions of 
the Bering Land Bridge National Preserve and also part of the 
National Park Service Beringia program. Beringia supports 
cultural, biological and other research projects related to the 
Bering Straits Land Bridge which has a close geographical, 
historical and cultural nexus to Alaska Natives, particularly 
those living in the Bering Straits region.
    To illustrate the difficulties that arise when agencies 
within the Department of the Interior are not mandatory 
obligated to negotiate self-governance agreements with tribes 
or tribal organizations, I have attached a copy of a letter 
that was sent to Ms. Glenn Key, then counselor to the 
Secretary, in which we summarized the problems we encountered. 
Kawerak's attempt to compact with NPS was plagued with 
difficulties every step of the way from our willingness to 
provide necessary information to their unwritten policies and 
unclear negotiating hierarchy. Kawerak was eventually able to 
negotiate a self-governance agreement with national parks 
resulting in $180,000 of Beringia funds being reallocated to 
Kawerak.
    This funding agreement went into effect in 1996 and was the 
first NPS tribal self-governance agreement in the United 
States. To my knowledge, this is the only one of two Title IV 
non-BIA agreements in Alaska, despite tribal and regional 
organizations' attempts to negotiate agreements with National 
Park Service, U.S. Fish & Wildlife and other agencies over the 
last 15 years. The Kawerak NPS agreement is far from a success 
story. Three years after it went into effect, it was 
discontinued by NPS, not because of nonperformance, 
nonreporting or other use, rather, NPS unfortunately treated it 
as a competitive grant and a nongovernment's agreement. Kawerak 
viewed the Beringia agreement as establishing a permanent 
relationship and as a compromised settlement of a much broader 
tried at war application.
    I believe you have the rest of my testimony. I do want to 
touch upon the issue that the Congresswoman from California 
raised in regards to water and sewer. We are currently, our 
compact with BIA includes IRR funds and road funds, and we are, 
you know, in negotiation with the Native Village of Stebbins 
because they have HUD money for building HUD houses. IHS funds 
for water and sewer and the State of Alaska has funds for an 
airport. The power company needs to move their fuel tanks. 
Negotiating with four different entities at this time, you 
know, this has allowed us to do that. By doing all these 
projects in a comprehensive plan, it is going to cost $60 
million outside of that, but if we do it all together, we could 
probably do it for $40 million, and so that saves the Federal 
Government and the state government a lot of money if we can 
have one comprehensive plan, one NEPA process to go through all 
this.
    In regard to suicide prevention, you know, Norton Sound 
Health Corporation has a separate organization for doing 
suicide prevention and we have one, and we are working very 
close together and we are trying to pull in other partners to 
do the same. Self-governance has allowed us to do that. One 
thing in regards to IRR funds real briefly. We wrote a letter, 
and BIA seems to have lost it. The stimulus money, in regards 
to maintenance funds, we have raised the issue of equitable 
distribution and we haven't received a response yet from them. 
So our engagement continues, it has been continuing, and even 
with this new law here, it would give us new tools. I am sure 
it will continue. It is a continuing process, it involves a lot 
of staff and a lot of legal people. So thank you for this 
opportunity.
    The Chairman. Thank you. To introduce our next panelist I 
will call on our colleague and valued member of our Committee 
on Natural Resources, the gentleman from New Mexico, Mr. Ben 
Ray Lujan.
    Mr. Lujan. Mr. Chairman, thank you very much. Today I have 
the pleasure of introducing one of my constituents, Donovan 
Gomez, from the Pueblo of Taos where he serves as the Tribal 
Programs Administrator and Self-Governance Coordinator for the 
Pueblo. Mr. Gomez has a long history of serving Indian Country 
in New Mexico. Throughout Mr. Gomez' career he has administered 
various educational programs for Ohkay Owingeh Pueblo and for 
the eight Northern Indian Pueblo Council. He has been serving 
in his current position with the Pueblo of Taos for almost six 
years and has been with the Pueblo through their transition to 
self-governance with the Department of the Interior in 2007 and 
Indian Health Services in 2009. Thank you for joining us today, 
Mr. Gomez, on behalf of Governor Lujan, Sr. I look forward to 
your testimony. Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Keith follows:]

     Statement of Robert Keith, Chairman of the Board, Kawerak Inc.

    Thank you for the opportunity to testify today on H.R. 4347--
Department of Interior Tribal Self-Governance Act of 2009, which aims 
to address some issues of deep and continuing concern to Alaska 
Natives.
    My name is Robert Keith. I am here as the Chair of the Board of 
Directors of Kawerak, Inc.--a regional tribal consortium serving twenty 
tribes from the Bering Straits region of Northwest Alaska. I am also 
President of the Native Village of Elim, serve on the Board of the 
Norton Sound Health Corporation and on the National Tribal Self-
Governance Advisory Group.
    Kawerak, Inc., is headquartered in Nome, Alaska which is the 
largest community in the Bering Straits Region and serves as the 
principle transportation and service hub. Kawerak currently contracts 
to provide a wide range of federal and state services, including almost 
all services previously provided by the Bureau of Indian Affairs. The 
Kawerak Board consists of the Tribal President or a Tribal Council 
designee from each of the 20 federally recognized Tribes in the region.
    Our service area includes the Seward Peninsula, Norton Sound, St. 
Lawrence Island, and Little Diomede Island. This region extends 230 
miles from north to south, covers 570 miles of coastline, and includes 
an area of more than 26,000 square miles--equivalent in size to the 
State of West Virginia. The region hosts 9,300 people of which 7,000 
are Alaska Native Inupiaq, Siberian Yupik, and Central Yupik. In the 
villages outside of the main hub of Nome, Alaska Natives comprise 90% 
of the population. Our villages are some of the remotest communities in 
the United States, with all being closer to Russia than Anchorage.
    We have an extremely high unemployment rate. Less than 40% of the 
population (mostly in Nome) is even considered part of the labor force. 
In the villages, as many as 70% of adults are currently unemployed--not 
because they choose to be, but because there are no jobs available. Our 
people are highly skilled subsistence hunters and fishers. We remain 
heavily dependent on the natural animal and plant resources for our 
everyday sustenance. Alaska Natives are one of the largest landowners 
in the State of Alaska, owning over 12% of the state (44 million 
acres). The 221 million acres of land owned by the federal government 
in Alaska are not parks and refuges to us--they are our backyards. For 
millennia our people have hunted, fished, and lived on lands that are 
now federally owned. Our stewardship of these very same lands speaks 
for itself; if we had not taken pristine care of the land, it would not 
have been worth putting into parks and refuges. Our innate 
understanding of the land around us makes us the perfect candidates for 
its future management.
    When Title IV of the Indian Self-Determination Act, PL 93-638, was 
passed in 1994, we thought it would open the door to broader Native 
involvement in the parks and refuges of Alaska. Title IV authorized 
non-BIA Interior Department agencies to compact with Tribes, when the 
particular program or federal activity had a close geographical or 
cultural nexus to the Tribe. Kawerak immediately applied to compact 
functions of the Bering Land Bridge National Preserve and also part of 
the National Park Service Beringia program. Beringia supports cultural, 
biological, and other research/projects related to the Bering Land 
Bridge, which has a close geographical, historical and cultural nexus 
to Alaska Natives, particularly those living in the Bering Strait 
Region.
    To illustrate the difficulties that arise when the agencies within 
the Department of the Interior are not mandatorily obligated to 
negotiate self-governance agreements with Tribes or tribal 
organizations, I have attached a copy of a letter that we sent to Ms. 
Glenn Key, then Counselor to the Secretary, in which we summarized the 
problems we encountered.
    Kawerak's attempt to compact with NPS was plagued with difficulties 
every step of the way--from their unwillingness to provide necessary 
information to their unwritten policies and unclear negotiating 
hierarchy. Kawerak was eventually able to negotiate a self-governance 
agreement with NPS resulting in $180,000 of Beringia funds being 
reallocated to Kawerak. This funding agreement went into effect in 
1996, and was the first NPS Tribal Self-governance agreement in the 
United States. To my knowledge, this is one of only two Title IV non-
BIA agreements in Alaska, despite tribal and regional organizations' 
attempts to negotiate agreements with NPS, USF&WS and other federal 
agencies over the last 15 years. The Kawerak NPS agreement is far from 
a success story. Three years after it went into effect, it was 
discontinued by NPS, not because of non-performance, non-reporting, or 
other issues; rather, NPS, unfortunately, treated it as a competitive 
grant and not a self-governance agreement. Kawerak viewed the Beringia 
agreement as establishing a permanent relationship, and as a compromise 
settlement of a much broader Title IV application.
    For the reasons listed above, and many more, we would like to make 
some recommendations for amendment to H.R. 4347. Prior to this new 
draft, the bill allowed for the expansion of mandatory compacting of 
programs to the Department of the Interior beyond the Office of the 
Special Trustee, and the Bureau of Indian Affairs. If enacted, the 
prior draft of 4347 would have allowed tribes and tribal organizations 
to negotiate contracts for the administration of non-BIA agencies, such 
as the National Park Services (NPS), United States Fish and Wildlife 
Service (USFWS), or other agencies within the Department of the 
Interior (DOI). With the new draft excluding the expansion of mandatory 
compacting to the DOI, we believe that the DOI will construe Title IV 
so narrowly that it will be of limited application outside of the BIA.
    Many of the agencies within the Department of the Interior foster 
the idea that they do not have any Native programs and therefore, are 
not obligated to enter into self-governance agreements. In their 
adamancy, the DOI has not even acknowledged that the ANILCA subsistence 
program is Native in nature. The DOI's continued reluctance to entering 
into non-BIA DOI self-governance agreements significantly limits our 
ability to be fully engaged in helping manage and protect the resources 
upon which we have depended for thousands of years. For example, 
Kawerak has a cooperative agreement with the USFWS to fund activities 
associated with the co-management of Pacific Walrus. Under the Marine 
Mammal Protection Act, Alaska Natives are the only people authorized to 
hunt marine mammals. Several years ago, Kawerak's funding level for the 
Eskimo Walrus Commission was $360,000 a year. Our funding was 
subsequently cut to $80,000 and we have been placed in the position of 
seeking to restore full funding ever since. When we explored why our 
co-management funding had been reduced, we discovered that USFWS 
redirected the dollars to fund their fixed cost increases within the 
department. If these funds had been in a compact/annual funding 
agreement, I believe they would have been protected, since agreements 
historically have not allowed for unilateral reduction of funding by 
agencies except for congressional approved increases or decreases. 
Congress needs to mandate the Department of Interior to partake in 
negotiation processes, in good faith, with Tribes for non-BIA DOI 
program service functions/activities. We request that section 405(b)(1) 
be amended to provide for the expansion of compacting beyond OST and 
BIA to the DOI.
    Kawerak, in partnership with the Bering Straits Native Corporation, 
the regional Alaska Native Claims Regional Profit Corporation, will be 
initiating another attempt to compact for functions associated with the 
Bering Land Bridge and the National Park Service Beringia program. If 
Congress does not make the DOI mandatorily obligated to negotiate in 
good faith, we will most likely face the same issues we did in the mid-
1990's. In reviewing the Treasured Tribal Landscapes Initiative, it 
appears that the administration is more supportive of Native Americans 
having a role in the management of the lands in which they have a 
geographical, historical, or cultural nexus. By amending this bill to 
expand mandatory compacting to include the Department of Interior 
agencies, other than just the Bureau of Indian Affairs and the Office 
of the Special Trustee, this bill would further the administration's 
goal of engaging Native Americans as stewards, protectors, and 
conservators of those lands upon which we depend.
    In the past year, Maniilaq, our sister consortium in the Kotzebue 
region, has indicated to NPS their interest in compacting for functions 
associated with four parks in Northwest Alaska. In their attempt, 
Maniilaq has faced many of the same problems Kawerak did in the mid-
1990's, such as incomplete information. Most recently, they received a 
draft an annual funding agreement (that was created for discussion 
only) for the possible assumption of the janitorial, custodial, and 
maintenance functions associated with the four parks. This after 
Maniilaq had clearly expressed their interest in managing the visitor 
center in Kotzebue and the transporter permitting processes. NPS 
continues to claim that functions are ``inherently federal'' as a means 
to avoid compacting with Tribes and Tribal Consortiums. The management 
of a park visitor center is not an inherently federal function. In 
fact, this is the type of activity that ANILCA, sections 1306-1308 
supports Alaska Native entities contracting to provide. Maniilaq is a 
tribal consortium that compacts with Indian Health Services (IHS) to 
provide health services in the Kotzebue region, operates the local 
hospital, and contracts with both the State and Federal governments for 
a broad range of other services. Maniilaq has BIA and IHS self-
governance compacts which have been in effect since for years. They 
manage millions of dollars in federal and state contracts and have 
demonstrated that they are fully capable of negotiating and managing 
NPS functions in the four parks requested. The redraft of H.R. 4347, to 
compel the DOI to be mandatorily obligated to negotiate in good faith, 
will provide Maniilaq with the opportunity to manage the land that our 
people have been stewarding for millennia; to hire staff who are local 
and have actual knowledge of the natural and cultural resources; and to 
have a say in the research and projects that take place in the area.
    In our view, the enhancement of the funding and contractual 
mechanisms recommended here will allow for more flexibility and involve 
less bureaucratic red tape than typical grants and contract. Because 
self-governance agreements are negotiated on a government-to-government 
basis, they carry a sense of equality and respect that other federal 
funding mechanisms do not. They bring the parties together on an annual 
basis. They ensure cooperation and acknowledgement.
    For many years Native organizations in Alaska have sought a closer 
relationship to the federal agencies that manage the lands in our 
areas. Our people are directly impacted by the activities of these 
agencies. And it only makes sense that we should have a meaningful role 
in the operation of the land units. H.R. 4347 must expand mandatory 
compacting of programs in the DOI agencies in order to take the large 
and necessary step in the right direction.
    Thank you very much for the opportunity to testify here today.
                                 ______
                                 

            Addendum to Robert Keith's testimony before the 
                     Committee on Natural Resources

    While we have spent much time recommending further amendment to 
H.R. 4347, we would like to draw attention to some of its strengths. 
H.R. 4347, if enacted, will streamline self-governance Tribes' 
administrative requirements by creating consistency between Title IV 
(Department of Interior) and Title V (Department of Health and Human 
Services). We strongly support the creation of administrative 
efficiencies for Tribes in their dealings with the DOI as well as the 
implementation of the beneficial provisions of Title V that will be 
included in Title IV with the passage of H.R. 4347. H.R. 4347, if 
enacted, will protect Tribes from the imposition of unilateral terms in 
funding agreement compacts. It will also limit the reasons that the DOI 
may use to decline to enter into a proposed agreement with a Tribe and 
includes a clear structure for Tribes to challenge adverse decisions. 
The passage of H.R. 4347 will enhance the administration's efforts to 
build stronger and clearer government-to-government relations (see EO-
13175 Consultation and Coordination with Indian Tribal Governments) by 
promoting uniformity, transparency, and workability between the DOI and 
the Tribes. The improvement and enhancement of Tribal authority under 
Title IV will further allow Tribes to prioritize needs, plan for the 
future, and increase self-sufficiency.
    Thank you for this opportunity to testify.
                                 ______
                                 

STATEMENT OF DONOVAN GOMEZ, TRIBAL PROGRAMS ADMINISTRATOR, TAOS 
                    PUEBLO, TAOS, NEW MEXICO

    Mr. Gomez. Thank you very much. With respect, Chairman 
Rahall, Ranking Committee Member Hastings, Members of the House 
Committee on Natural Resources, thank you for inviting the 
Pueblo of Taos to testify at this important hearing. My name, 
as Congressman Lujan said, is Donovan Gomez. I am the Tribal 
Programs Administrator and Self-Governance Coordinator for the 
Pueblo of Taos, as well as a tribal member. On behalf of the 
Taos Pueblo Tribal Council, Governor James Lujan, Sr., and War 
Chief David G. Gomez, I am here to provide testimony in support 
of H.R. 4347, the Department of the Interior Tribal Self-
Governance Act of 2009. Taos Pueblo are known as one of the 
most guarded and conservative Pueblos in our traditions and our 
governance.
    We don't have a constitution, we don't vote for our tribal 
leaders; however, our tribal leadership is elected annually by 
legislators of the Tribal Council. Under self-governance, the 
Tribal Council has authorized a provision for determining 
community interests and needs in the reallocation of funds the 
self-governance process provides. What self-governance does, 
Committee Members, for us as a traditional community, it 
provides us the opportunity to maintain our traditionalism, but 
to do new and different things with these Federal funding that 
we have. Our role in self-governance proceeds Public Law 93638 
through one of the most publicized land claims in tribal and 
Federal history, the return of Blue Lake to Taos Pueblo in 
1970.
    The land transfer was part of President Richard Nixon's 
reversal of harmful Federal Native American Indian policies to 
tribal self-determination policies. This year, Taos Pueblo is 
celebrating the fortieth anniversary of the return of Blue Lake 
to the Taos Pueblo people and acknowledges the bill that 
clearly indicates Federal interest in Native American issues 
and the starting point for launching a new Federal Indian 
policy of self-determination. We have been a Title I tribe 
since the beginning of this new policy, and now we have begun 
to look into self-governance by being a self-governance tribe 
with both DOI and IHS. Among the pueblos, we are known for 
taking action rather than a wait and see stance, and we are the 
only second tribe in the southwest region of BIA to execute a 
self-governance compact.
    We are also the first tribe in the Albuquerque area office 
to enter into an IHS self-governance compact. We are very, very 
proud to have played a historic role in the formation of Public 
Law 93638. Now, regarding H.R. 4347 and having gone through 
self-governance negotiations recently, it is very apparent to 
us that these dissimilar rules which BIA and IHS follow are 
very harmful to the self-governance effort. The H.R. 4347 
amendments, as proposed, would greatly aid tribes wishing to 
enter self-governance and would facilitate our own future self-
governance operations and negotiations by aligning BIA rules to 
IHS rules adopted in 2000 and would clarify or revise some 
Title I provisions still applicable to both agencies.
    For example, the criterion process which govern agency 
decisions to decline a tribe's self-governance proposals are 
very different under Title IV and Title V. Title IV basically 
allows tribes to require the BIA to satisfy the 638 Title I 
declination criteria and burdens of proof to use the Title I 
declination process. In contrast, Title V establishes more 
stringent declination criteria and broader statutory 
declination burden of proof requirements and declination appeal 
process applicable to IHS self-governance declinations. This 
was done a decade ago. These statutory differences have also 
led to different regulations addressing these issues. All these 
regulations are different. It is very burdensome to deal with 
so many different regulations which could be streamlined into 
one set to apply to all self-governance declinations.
    In Section 407[c] of H.R. 4347 would require the Interior 
Department to follow the same stringent declination rules at 
IHS. This would give the tribes only one uniform set of rules 
and appeals standards for resolving declination disputes 
regarding our self-governance initiatives. The new Title IV 
regs called for in Section 415 of H.R. 4347 would have to 
conform to that statute which would require that the Title V 
and Title IV regulations governing declinations and appeals 
would essentially be the same. Section 415 of the bill also 
causes the immediate appeal of the existing Title IV 
provisions. All of this would be a great improvement, Committee 
Members, as dealing with different statutes unnecessarily 
increases our legal operation costs in moving forward with 
self-governance and adds a layer of confusion that advances no 
one's interests. With this, Taos Pueblo strongly supports H.R. 
4347.
    [The prepared statement of Mr. Gomez follows:]

       Statement of Donovan Gomez, Tribal Programs Administrator/
              Self-Governance Coordinator, Pueblo of Taos

    With your respect, Chairman Rahall, Ranking Member Hastings, and 
Members of the House Committee on Natural Resources, thank you for 
inviting the Pueblo of Taos to testify at this important hearing. My 
name is Donovan Gomez and I am the Tribal Programs Administrator and 
Self-Governance Coordinator for the Pueblo of Taos as well as a tribal 
member. On behalf of the Taos Pueblo Tribal Council, Governor James 
Lujan, Sr., and Warchief David G. Gomez, I am here to provide testimony 
in support of H.R. 4347, the Department of Interior Tribal Self-
Governance Act of 2009.
    The Pueblo of Taos is a traditional Pueblo community located in 
Taos County, New Mexico, 70 miles north of Santa Fe. Our population is 
2,505 tribal members residing on a land base of 103,637.31 acres
    The Pueblo supports this government-to-government forum and process 
for Tribes and the United States to make the necessary amendments that 
allow for the fulfillment of tribal self-determination, self-
governance, sovereignty, and treaty rights, as well as sufficient 
levels of funding to address the needs of Tribes and their tribal 
citizens.
History
    Taos Pueblo is known for our beautiful and prominent architecture, 
especially of our multi-storied adobe Pueblo. The North-Side House said 
to be one of the most photographed and painted buildings in the Western 
Hemisphere. It was designated a National Historic Landmark on October 
9, 1960, and in 1992 became a World Heritage Site.
Governance
    Taos Pueblo is also known for being one of the most guarded and 
conservative pueblos in our traditions and governance. Our governance 
is similar to that of other tribes and governments with our Council as 
the legislative branch, the Governor and Warchief's Offices as the 
executive branch, and the traditional courts located in each Office as 
the judicial branch. Our Tribal Council is composed of 56 Councilmen. 
We are traditional in governance and have always been self-governing. 
As such, the move toward Self-Governance was not unfamiliar as we have 
always governed ourselves.
Traditionalism
    We do not have a constitution, we do not vote for our tribal 
leaders. Our tribal leadership is elected annually by our religious 
leaders and the Tribal Council. However, under Self-Governance, the 
Tribal Council has authorized a provision of determining community 
interests and needs in the reallocation of funds the self-governance 
process provides.
Taos Pueblo and Self-Governance
    Taos Pueblo has been a Self-Governance Tribe since 2007, 
negotiating a compact and funding agreement with DOI in the same year 
and with the Indian Health Service in December 2009.
    With the trust responsibility, Taos Pueblo received a commitment 
from the federal government to provide for the health, safety, and 
welfare of our people into the future. This federal trust 
responsibility has never been fully met as our people experience lower 
life expectancy rates, higher dropout rates, and higher poverty rates 
than any other racial or ethnic group in the country. The overall 
prosperity of Taos Pueblo is directly tied to the health and well-being 
of each tribal member
    Taos Pueblo calls upon Congress to address these issues by passing 
H.R. 4347 Amendments to assist existing Self-Governance tribes and to 
encourage participation of new tribes:
    <bullet>  To provide greater legal authority to tribes as they 
pursue the goal of transferring authority and responsibility from 
federal bureaucracy to tribal program administration;
    <bullet>  Much needed reform and parity in negotiations between 
tribal governments and the federal government;
    <bullet>  To provide much needed services to the community in the 
reallocation and design of programs functions services and activities 
or portions thereof;
    <bullet>  To set our own priorities and determine how program funds 
should be allocated;
    <bullet>  To insure the intent of congress reaches the tribes and 
tribal members. 
Taos Pueblo and PL 93-638
    The Pueblo's role in self-governance precedes Public Law 93-638, 
the Indian Self-Determination and Education Assistance Act of 1975, 
through one of the most publicized land claims in tribal and federal 
history, the return of Blue Lake to the Taos Pueblo people in December 
1970.
    The land transfer was part of President Richard Nixon's reversal of 
harmful federal Native American policies to tribal self-determination 
policies; most prominent of his actions was the return of Blue Lake to 
the Taos Pueblo.
    Our self-determination efforts began in earnest in 1906 when 
President Theodore Roosevelt appropriated 48,000 acres of Taos Pueblo 
land toward the creation of the Carson National Forest. The Pueblo 
waived their right to the town of Taos and surrounding areas, asking 
only for the return of our sacred Blue Lake. The U.S. Forest Service 
cut roads into the area, made it available to campers and tourists, 
built cabins and corrals, allowed fishing in the sacred lake itself, 
allowed grazing of herd animals into the area, allowed clear cutting of 
some 2,000 acres of timber, and threatened to mine the area immediately 
adjoining Blue Lake.
    On December 15, 1970, Bill H.R. 471 was signed by President Nixon 
into law and Taos Pueblo got back 48,000 acres of our sacred space 
including Blue Lake.
    This year Taos Pueblo is celebrating the 40th anniversary of the 
return of Blue Lake to the Taos Pueblo people and the bill that clearly 
indicated federal interest in Native American issues and the starting 
point for launching a new federal Indian policy of self-determination.
    Taos Pueblo has been a Title I tribe since the beginning of this 
new policy and has now begun our transition to self-governance. Among 
the Pueblos, we are known for taking action rather than a wait and see 
stance. Thus, we are only the second tribe in the Southwest Region, BIA 
to execute a self-governance compact in 2006. We were the first tribe 
in the Albuquerque Area Office to enter an IHS self-governance compact 
in 2009. And we are very proud to have played a historic role in the 
formation of Public Law 93-638.
H.R. 4347 Will Aid Self-Governance Tribes
    Having only recently gone through self-governance negotiations with 
BIA in 2006 and with IHS in 2008-2009, a grueling two year initial 
negotiation, the dissimilar rules which BIA and IHS follow are very 
apparent to us. The H.R. 4347 Amendments as proposed would greatly aid 
tribes wishing to enter Self-Governance and would facilitate our own 
future self-governance operations and negotiations by aligning BIA 
rules to the IHS rules adopted in 2000 and would clarify or revise some 
Title I provisions still applicable to both agencies.
    For example, the criteria and process which govern agency decisions 
to decline a tribe's self-governance proposal are very different under 
Title IV and Title V. Title IV (at 25 U.S.C. Sec. 458cc(l)) basically 
allows tribes to require the BIA to satisfy the Pub. L. 93-638 Title I 
declination criteria and burdens of proof and to use the Title I 
declination process as set out at 25 U.S.C. Sec. 450f(a)(2). In 
contrast, Title V (at 25 U.S.C. Sec. Sec. 458aaa-6 and 458aaa-17) 
established more stringent declination criteria and broader statutory 
declination burden of proof requirements and declination appeal 
processes applicable to IHS self-governance declinations. This was done 
a decade ago.
    These statutory differences have also led to different regulations 
addressing these issues. 42 C.F.R. Part 137, subparts H and P (Title V 
declinations and appeals); 25 C.F.R. Part 900, subparts E and L (Title 
I declinations and appeals); 25 C.F.R. Sec. 1000.179 and subpart R 
(Title IV declinations and appeals). All of those regulations are 
different. It's very burdensome to deal with so many different 
regulations which could be streamlined into one set to apply to all 
self-governance declinations.
    Sec. 407(c) of H.R. 4347 would require the Interior Department to 
follow the same stringent declination rules as IHS. That would give the 
tribes only one uniform set of rules and appeal standards for resolving 
declination disputes regarding our self-governance initiatives. The new 
Title IV regulations called for in Sec. 415 of H.R. 4347 would have to 
conform to that statute which would require that the Title V and Title 
IV regulations governing declinations and appeals (and on the many 
other issues where there are presently differences) to essentially be 
the same. Sec. 415 of the Bill also causes the immediate repeal of the 
existing Title IV provisions.
    All of this would be a great improvement as dealing with different 
statues unnecessarily increases our legal operational costs in moving 
forward with self-governance and adds a layer of confusion that 
advances no one's interests.
    Thus, Taos Pueblo strongly supports H.R. 4347.
Recommendations to Other Tribes in Area
    The Pueblo wholeheartedly supports tribal self-governance and H.R. 
4347 as proposed in that its provisions would greatly assist our future 
self-governance operations and negotiations and will help other tribes, 
especially the Pueblos as they move to negotiate self-governance 
agreements with the United States.
    We will continue to focus on our traditionalism and how we have 
begun to use Self-Governance to support it rather than to bury it. With 
good graces, the Committee will see that the Title IV amendments will 
not only aid self-governance tribes but aid the entrance of the Pueblos 
into Self-Governance; the participation of the Pueblos will certainly 
give the Self-Governance movement new colors, strength and 
spirituality.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you. Let me ask Chief Pyle the first 
question. In your testimony you note that self-governance 
promotes greater economic stability and better fiscal 
responsibility and accountability. Would you please explain how 
self-governance has promoted better fiscal accountability and 
improved the economic stability of the Choctaw Nation.
    Mr. Pyle. Yes, sir. I would go back a little bit. The 
question was asked later when the lady was here and I think 
left. She asked about the accountability of a tribe to be able 
to go into self-governance. The original Act is, as long as it 
is still in place, you have to have three years of no 
significant major findings in three submit years, three year 
audits, in a row before you are eligible for self-governance, 
so you have to start that process early. When we came into it, 
the self-governance, we actually took over a contract for our 
service unit in 1985, and nine years later, then that was 
evolved into self-governance in 1995, about nine years later.
    Each year we would try to get better in our accounting and 
our businesses and find out who our good leaders were and we 
were able to start these businesses. Now, it took years 
sometime to get them really successful and we did a lot of 
planning there, but you find out you have systems, you have 
accountants, you have no politics in business, there is not 
room for it, and so you get these principles. We adopted 
probably five or six major principles there to go into 
business. Along the way, we actually went to, if we were in New 
Mexico, we would go out and find the best tribes there, maybe 
in south there, and we were in Mississippi, we would go to 
another tribe, and we were in the northwest, we would go look 
at them.
    A lot of that, when we were going to self-governance 
conferences, we would intermingle with these tribes. So it was 
a learning experience for us over about 12 or 15 years that 
evolved into being able to go in businesses and know how to 
operate those businesses. Now, we had the business background 
sometime, but it is a political environment that was sometime, 
many tribes will stifle by. They allow politics, we found. We 
found that it has to be a very strong council and a strong 
leadership at the helm to be able to go in and said no politics 
because there is not room for it. The margins are slim but the 
returns are great in the fact that if you have 100 people at a 
job, that is 100 families you helped, and so that is the 
residual many times.
    So sometime we go into it for dual effect, try to make some 
money, but big jobs, amount of jobs. So the thing that we 
learned from here is you have to go in, you are audited, if you 
are not doing something right they will tell you, and, 
actually, we have good relationships with our auditors to find 
out what we can do better. It is a learning curve there that we 
have enhanced on.
    The Chairman. The pending legislation would make the 
Interior Self-Governance program consistent with the Indian 
Health Service Self-Governance program. One of the changes 
would be to authorize the Indian tribes to submit a final 
offer. Would you explain why this change is necessary.
    Mr. Pyle. I believe you are talking about the funding 
agreement when you are negotiating.
    The Chairman. Correct.
    Mr. Pyle. Well, it seems to be today is there was 
originally, they have come under the originally Title IV and 
Title V. It would seem that the Indian Health Service will 
negotiate and if you can't come to some agreement, they will 
say, OK, until we can come to an agreement, let us use the 
previous year's budget and let you continue your program. It 
has been some cases where the Department of the Interior comes 
in and says a little different. They say if we can't come to an 
agreement on this funding, we will just withhold all funds. 
That is the problem right there, the services that are not 
getting to the people. I don't think Congress intended that.
    I think we would like to see some of the better, we call 
it, you know, the better management tools. What works. It 
doesn't always work every time perfect, but let us keep on 
changing it until we get it right. We have seen that if we can 
change that, where we get services and you have to go back to 
last year's and let us try to negotiate it out to further that 
year. We would like to see it where those services continue for 
those people, and let us go, let them use last year's, that is 
OK, until we can come to conclusion. Don't just stop it. They 
kind of hold a hatchet over your head.
    The Chairman. Chairman Levings, you testified that the BIA 
and the Indian Health Service treat self-determination 
contracts the same as Federal procurement laws. How have the 
agencies treated self-determination contracts the same as 
Federal procurement laws?
    Mr. Levings. Chairman Rahall, what I experienced in my time 
as a tribal leader, and a tribal councilman, and a tribal 
director/administrator for the Mandan, Hidatsa and Arikara, 
Three Affiliated Tribes, is that I think we are doing exactly 
what the CFR criteria requires of us, you know? There has been 
nothing that we don't do that we are not supposed to. The three 
bids, you know, for procurement in your case that you are 
requesting, suggesting, is there any difference, I don't think 
so. Knock on wood, I am former Bureau worker myself, a Bureau 
of Indian Affairs realty specialist. When I came from the 
Bureau to the tribe, I continued on that same format of doing 
business, but I inherited the same conservative governing that 
was before me.
    The former administrators, and directors, and council 
members, and chairmen, they have all been respectively 
conservative in regards to following the rules, and the 
regulations and the laws. So as I sit here and talk about self-
governance, I am kind of interested. We have contracted every 
program with the tribe that has been offered to us with the 
Bureau of Indian Affairs, the Indian Health Service and the 
Bureau of Reclamation. The only one we turned back, Chairman 
Rahall, was the realty of the BIA. In 1986 there was a 
referendum that took the discussion or debate and the issue to 
the people, and the people said leave realty and range with the 
BIA. Those are the only two programs that are left on my 
reservation that we didn't 638.
    We recently did two more 638 letters of intent to BLM. We 
have oil and gas on Ft. Berthold. We have a lot of oil and gas. 
In fact, they are calling us the Saudi Arabia of Indian 
Country. So we are looking at BLM not doing their part so we 
want to 638 them. We have a one stop shop that we are looking 
at to do the oil and gas. We don't think they are doing their 
job. We want to 638 that. In May of 11 on 2008 we 638 Indian 
Health Service. We are the first tribe in Great Plains, 
Aberdeen area that took on that task. As Honorable Chairman 
from Choctaw has said they have done for decades, well, we are 
the first for Aberdeen. Then, in December of 2007, we took on 
the law enforcement. We were the first in Aberdeen area to do 
that. So we are doing it effectively, efficiently, and we are 
doing audits every year.
    The problem we are having, Chairman Rahall, is that when we 
are doing our audits, it includes everything. So if we have an 
enterprise development, a radio station, a college, they are 
encompassing all of those outside organizations that should be 
standing alone on their own audit. No. They want the audit for 
everything. So it is kind of unusual thing that holds us back, 
even though every the Three Affiliated Tribes, the Mandan, 
Hidatsa and Arikara, supplement these Federal contracts to the 
tune of millions every year. When I first got elected Chairman 
November 2006, I gave the bill to the Senate Indian Affairs 
Committee and I said, Chairman Dorgan, you owe us $26 million 
for the last 10 years of supplements that we have had for the 
638 contracts. We do also retrocede. We let the criminal 
investigation go back because we know when it needs to be done 
differently. Maybe two, three years from now we will 638 it 
back into the tribe's organization structure. But we have had 
all areas. In self-governance, I think one day we want to be 
there, but it is just down the line. Respectfully, Chairman 
Rahall. Thank you.
    The Chairman. Thank you, Chairman Levings. Mr. Hastings?
    Mr. Hastings. Thank you.
    The Chairman. We should not interrupt our hearings to sing 
Happy Birthday to Don Young, by the way.
    Mr. Hastings. Sounds good. Go ahead.
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Hastings. Boy, talk about an entrance. I will tell you.
    The Chairman. I know it. Every time. At least he comes to 
the right side of the aisle, though.
    Mr. Hastings. That is debatable, but that is all right. I 
want to thank all of you for coming and your testimony. As I 
mentioned in my opening remarks, certainly the issue of self-
governance sounds pretty simple, but it gets complex when you 
go into the various areas, so my question to you is kind of the 
principle. Let me just ask the question. I want to ask it of 
all of you and couch it as I see how this unwinds. My question 
is should tribes incur financial liability for programs they 
assume pursuant to self-governance agreements authorized under 
this bill? Let me couch it in this way because the mere fact 
that this bill says that the government can reassume whatever 
that program is or function would imply that there is a risk 
involved.
    Obviously, there is risk and reward, as Chief Pyle has 
said, from at least financial programs that they run. Chairman 
Levings, you essentially said the same thing. So there is risk 
and reward here. Listen. That is the essence of what our 
economic system is anyway. So the question is on the liability 
part, and you heard my exchange with the Department of the 
Interior, it is once a program is in place, up to the time 
after going through a number of steps there has to be a 
reassumption, who assumes that liability? My question to you is 
should you be part of that liability? I would like to have your 
response from all of you. Chief Pyle, we will start with you.
    Mr. Pyle. Yes, there is a responsibility there, but it is 
like the lady said, the Department of Defense has never had a 
complete audit. I don't know what the Federal Government does 
when they operate programs and they are not efficient and they 
have a big problem. I am not certain what they do on recovering 
the money. I don't know they take it out of that budget next 
year or does the entity actually pay it back. I am not real 
familiar with the Federal Government, but I know when they 
don't live up to it, I think it is just like, OK, well, you 
keep going. Here, I think, you know, if there is some kind of 
fraud, obviously, somebody has to pay on that. If it is not 
getting the job done as good, as efficiently, usually the 
Federal agencies still have the authority, if it is not run 
right and there is gross mismanagement, to actually come in, 
and, in certain circumstances, they can take a program over if 
it is mismanaged grossly. I really don't know of any programs 
right now. There may have been some somewhere.
    Mr. Hastings. Well, I am talking hypothetically. There is 
going to be, I mean, if there is a takeover, there has to have 
been established going through some steps that something went 
wrong. The question is who is responsible for that part? That 
is really what I am asking. I am asking in the broader sense 
should the tribes under this process assume some of that 
financial liability? That is all I am saying.
    Mr. Pyle. Yes. We actually, like our good friend here, 
Three Tribes there, Levings, we put in millions of dollars 
every year into ours, and we are proud that we do that and we 
take a financial responsibility on that. Some tribes not may 
have been fortunate to have those businesses or locales. A lot 
of ours is because of location sometime. You would have to go 
back and would really need to go back into the laws and see 
what is there. I really couldn't answer you at this time. We 
will certainly research it and send you what we could come up 
with.
    Mr. Hastings. Would you do that? I would appreciate it.
    Mr. Pyle. Certainly.
    Mr. Hastings. Thank you.
    Mr. Levings. Effectively, I guess I would just have to give 
an example of what we ran into regards to your question. There 
was a year that we were looking at cutbacks. The COPS FAST 
program under Department of Justice wasn't going to be refunded 
and the Three Affiliated Tribes were successful in having that 
contract for five years, I believe, in six years and then the 
funding was cut. Well, our police force of 20 was going to go 
down to six. Fourteen of our COPS FAST were under tribal 
general fund, so we were going to end up with six officers and 
we were going to be devastated, basically. The liability really 
wasn't ours because the contract for law enforcement services 
was still with the Bureau of Indian Affairs. If we didn't fund 
those 14 positions, there was going to be chaos on our 
reservation because we have a million acres and 12,000 enrolled 
members. So we funded it under the general fund, and, yes, we 
bore ownership of that liability.
    Mr. Hastings. OK. Yes, Mr. Keith?
    Mr. Keith. I am not sure about the exposure side of the 
question. I know that, you know, our audits have doubled in 
their cost and I know they are quite a bit more extensive. 
Those audits are provided to, you know, our funders, and first 
and foremost is the Office of Self-Governance that receives 
those audits. It is at that point where there is some 
engagement if there are findings or other issues. So, but we 
haven't gone through that process, so I am not really familiar 
with, you know, how that works. I know there is a process of 
engagement that occurs. We have seen it with one of our tribes. 
It has always been addressed before it gets to the point of 
liability.
    Mr. Hastings. OK. Good. Good. But there is at least some 
assumption of some liability, but it was addressed before any 
action was taken. Is that a fair way to say that?
    Mr. Keith. Yes. I know there are some requirements for 
insurance be placed on----
    Mr. Hastings. Right. All of those would be a factor. I am 
just talking about the issue of some sort of liability. Mr. 
Gomez?
    Mr. Gomez. Thank you, Mr. Chairman. First of all, with 
respect to the Committee, I would like to acknowledge Mr. 
Lujan, our Congressman from the Third Congressional District. 
Thank you very much, Mr. Lujan, for all the support you have 
given to the Pueblo. Mr. Chairman, he is no stranger to our 
Governor's office. We regularly have him. You have a good 
person on your Committee here in Mr. Lujan. Regarding the 
liability portion, that is a tricky question, I agree with the 
members of the panel here, but when it comes to accountability 
and responsibility, whether it is a 638 contract, or a Title 
IV, or a Title V compact, Taos Pueblo will assume the 
responsibility for the operation of these programs.
    It is just not a financial interest of us, but it is 
delivering these programs and services without red tape to our 
community members. We have done a lot so far in our short time 
as being a self-governance tribe. Now, regarding the liability, 
we have some programs that were covered under the Federal Tort 
Claims Act. Because we are operating these what they call PS of 
As, we are operating those, and we are covered by the Federal 
Tort Claims Act in some of those activities that we assume. 
When it comes to liability and responsibility, I believe that 
is a shared process between the Federal Government and the 
tribes. This is a compact. This is an agreement between the 
Federal Government and the tribes, and that is the way we look 
at it at Taos Pueblo.
    Mr. Hastings. Good. Thank you very much, Mr. Chairman.
    The Chairman. Gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Thank you very much, Mr. Chairman. I am very 
happy to be co-sponsor of this bipartisan bill. The two co-
chairs of the Native American Caucus are sponsors, and Mr. 
Boren being the chief sponsor. I really appreciate your very 
clear testimony on this. You have helped inform us a great 
deal. Kind of a personal note. I have a former student of mine, 
I used to be a schoolteacher in Flint, Michigan, and one of my 
former students now lives in what he calls Dude Ranch, 
Oklahoma. We share Christmas cards and phone calls once in a 
while. I have mentioned that to Mr. Boren here a number of 
times. Chief Pyle, he always speaks of you reverentially. It is 
really touching.
    I like to see respect shown to people who have earned 
respect, like yourself. He speaks of you so reverentially, it 
is almost like you are his Godfather in the best sense of the 
word. I have learned a lot about you through Dan Boren. So all 
I can say is, all of you, keep up the good work, and, Chief 
Pyle, you continue to keep up the great work which Dan Boren 
tells me about all the time. Thank you. God bless you.
    Mr. Pyle. We really appreciate it. It is because we have a 
great Congressman, Dan Boren. Thank you.
    Mr. Boren. Thank you. Keep it up.
    The Chairman. The Chair will have to second that. Gentleman 
from Alaska, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. Again, thank all of you 
for recognizing that 77 years ago my poor mother gave birth to 
me. Just for the information of the audience, I was born in 
northern California on a ranch with a midwife, and the day I 
was born it was 110 degrees above and it was like that for 60 
straight days.
    The Chairman. OK. That is too much information.
    Mr. Young. I just want you to know that is why I moved to 
Alaska. Exactly right. Mr. Keith, thanks for coming all the way 
down. I saw you last week in Nome. Mr. Chairman, and I have 
read your testimony, could you just give us an example what has 
happened in your attempt to work with Fish & Wildlife, Park 
Service, et cetera, trying to work with them and trying to 
achieve a goal of mutual self-determination and area with 
Federal agencies.
    Mr. Keith. As I stated, it requires legal counsel, it 
requires a team of people. We have a good team of people up at 
Kawerak. It involves a lot of people to negotiate, and it takes 
time, and it takes human resources, and it takes money, and, 
above all, it takes a will to engage the Federal agencies. They 
are not always, you know, cooperative. We are taking away 
responsibility from them upon ourselves, and we are willing to 
do that but they are not so willing to give up that 
responsibility, and so that is where the engagement usually 
occurs.
    Mr. Young. Have you been successful?
    Mr. Keith. Well, with National Park Service we were for 
three years.
    Mr. Young. And when you say three years, they have canceled 
that?
    Mr. Keith. Yes.
    Mr. Young. Did they give you a reason why?
    Mr. Keith. Well, it was they viewed it as a grant. They 
viewed it as, you know, this was their program.
    Mr. Young. But it is in your area?
    Mr. Keith. Yes, that is correct.
    Mr. Young. Mr. Chairman, this is the problem with this 
whole program, the reason I support this bill. BIA shouldn't be 
under the Department of the Interior because it is in conflict 
with other agencies under the Secretary. You have the Fish and 
Wildlife Service and Park Service in an area of the Seward 
Peninsula where these people live and they don't really want to 
deal with them because they have their own little program, yet 
BIA is under the Department of the Interior, and what these 
people are trying to do, the way I understand it, is be able to 
be part of those other agencies, but they don't want to deal 
with them. This is what this bill does, at least I hope it 
does, it better, because I really, I have never understood it.
    We were sold, before your time and everybody else in this 
room, the bill of Alaska National Lands Act, then the Native 
Claims Act under the National Act. We were supposed to be 
partnerships. I think you are the only one, there may be one 
more in the Interior, that has been able to deal with the 
Department of the Interior. They don't want to deal with the 
people who live in those areas. I think that is terribly 
unfortunate. I am supporting this legislation. It may need some 
improvement. I don't know for sure, but there is no reason 
why--we have Doyon, we have the Bering Straits, we have 
Chiulista. Chiulista is right in the middle of a huge refuge 
and they don't work with them, yet they are the people directly 
affected. Why can't they be doing the job instead of finding 
somebody up out of, all due respect, Massachusetts and have 
them work because they know better.
    I think you are willing to take the responsibility. I do 
think you have--Marine Mammal Commission up there works pretty 
good. The health program works real good now. It is mostly all 
contracted out, and it shows it can be done and they are 
accountable. So it is unfortunate we have to have this 
legislation, I will be honest with you. It could have been done 
through the agencies themselves if they just made the attempt. 
So I hope we see this bill come to the Floor of the House in a 
very rapid fashion. Again, thanks for flying all the way down 
here. It is a good weather today. Get out of here tonight. 
Tomorrow it is going to be 90 degrees, not 110. Go ahead.
    The Chairman. The gentleman from Oklahoma, Mr. Boren.
    Mr. Boren. Thank you, Mr. Chairman. Look forward to being 
in Alaska, actually, in 2011. That is my plan. Mr. Young and I 
have been talking about maybe having an expedition together, a 
little bear expedition. Anyway, I appreciate you co-sponsoring 
the legislation and your support. Also wanted to say again to 
Chief Pyle, thank you for your efforts on this legislation, 
also for all you do for the Choctaw Nation in southeastern 
Oklahoma. You mentioned earlier in your testimony, you talked a 
lot about, you know, the health care improvements that have 
happened, and Assistant Chief Gary Batten also is a big part of 
that. I have a question for you. The Choctaw Nation has been 
through this. You all have been involved in self-governance. 
What advice do you have for other tribes that are kind of 
starting where the Choctaw Nation was, you know, 15, 20 years 
ago?
    Mr. Pyle. Well, sir, we have a saying. In our part of the 
state we like to kid and joke, and this is only a half a joke 
and half truth. We steal our best ideas. When I say that, we go 
and we find, if we want to do something, we find some veteran 
that has got, of any service. If it is Indian health, we find 
somebody that has got 30 years experience that were very high 
level as we can. We figure that, you know, they have so much 
knowledge back there, 30 years, which would take us many years 
to duplicate, and we ask them to come in. We ask a lot of good 
consultants that were successful in whatever area they are at. 
Also, when we travel around, assistant chief for many years, 
depends on what committee, I would actually find out who were 
the most successful tribes in the nation.
    We have been to every one of them, and we have asked every 
tribe ahead of time if we can come and see how they do their 
businesses, and talk to their leadership and talk to their 
counsel of problems they had. It is just a learning experience. 
We don't have any golden rules. Then, when we went into 
business, we actually had to fund those for several years 
before they, you know, we had to put capital into them. Not 
every business are success. We tried to visit with our counsel, 
but not every business is going to be successful ahead of time. 
It takes years to be successful. The biggest thing is we use 
the gray hair theory. Somebody that has got that 20 or 30 years 
experience.
    If I were going to come to Washington, the first thing I 
would do is ask some of the men and women up before me today 
what do you have to do to be successful? Well, number one, you 
know, the harder you work, the luckier you get. Well, that is 
what it has taken, and we have these people who have 30 years' 
experience in self-governance. We open up our doors just like 
all other tribes opened up to us, and we will share the good 
and the bad. So I guess that is the biggest experience----
    Mr. Boren. Let me ask you this question. I think I heard 
this statistic this past weekend. How many jobs have the tribe 
created? Was it 8,500? Then maybe how many millions of dollars 
of an impact over the last few years? Hundreds of millions is 
what I----
    Mr. Pyle. Yes. I have been there about 28 years and I had a 
background in business, but it is a long growing effect. In the 
last few years, after you are kind of successful in one or two 
ventures--and we got that, really, from the self-governance 
because we had to have all these systems and it took several 
years. That started programs. We are a little over 8,000 
employees today, and we are in six different type of 
businesses. Now, we were in seven. Recently we got into a 
business and after a few years we lost our shirt and we sold 
the business. We got out of it. We said there is not a future 
in here. We had consultants come in and says you are not going 
to have a future in it. So we got into it. We try to refine 
that as going in and using good consultants now. Experts has 
been doing something for years.
    We find that we are much more successful. Really what it 
does in our area is create for the communities. We actually 
take roads money and pave the streets. Right now we have a city 
that has been very archaic that said recently we want to get 
business here, can you help us, and we have some land there, we 
will donate it for an industrial park, we will even do the 
paving in around. The Congress a few years ago allowed us to do 
that. We can take our roads money and do all the paving in this 
industrial area, and they can build the building, and we will 
donate the land and the other things, and so it is not just us. 
We figure if the community around us, whether Indian or non-
Indian, I mean, a lot of Indians are there, if they grow, we 
grow, and it is vice versa. Sometime you have to take that 
first step.
    There has been a lot of animosity for years. A little bit 
is left. We bypass the towns that don't want to work with us. 
We go into places that welcome us. We find that if you help 
somebody out several times, they help you. So that is really 
the best thing there. We like to say to be a good missionary, 
sometime you have to be a good businessman because we pump 
millions of dollars, get $7 million a year just in the health 
system, as we have been more successful. It helps all the 
people in that area. It is one of those hospitals that is 
allowed to--it is kind of like Alaska. Everyone uses our 
hospital, whether you are Indian or non-Indian alike.
    Mr. Boren. That is great. It looks like we have run out of 
time, Mr. Chairman. Again, thank you, Chief Pyle, for being 
here and all of the other witnesses today.
    The Chairman. The gentlelady from California, Ms. 
Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. Question for Mr. 
Keith. Why is the health care facilities mentioned are there no 
mental health illness treatment options? Are they in compliance 
in authorization requirements in the way of using the funds?
    Mr. Keith. Why is there no?
    Mrs. Napolitano. Is there any service delivery of mental 
health?
    Mr. Keith. There is. I think Norton Sound Health 
Corporation was one of the first tribes to use their tribal 
monies--under the compact, monies that we get come with 
additional administrative dollars, and the health corporation 
started a village-based counselor system up in Alaska. The 
question, specifically, is a little bit out of my league--if 
there are actually funds in the system for this.
    Mrs. Napolitano. Could you try to find out?
    Mr. Keith. I know we have taken administrative funds to 
start up our own counseling system, and I do believe that the 
Federal Government is probably funding something like that 
since we have created that. Initially it was a tribal 
initiative. We have 15 remote sites that the hospital serves 
and there are clinics in each, and then we have put village-
based counselors and are training them up, and getting them 
certified and all that kind of stuff into that field.
    Mrs. Napolitano. Well, part of my concern has been that 
many years ago, and I don't know if Mr. Kildee remembers, there 
was a hearing on the Senate side, same questions were being 
asked then, mental health service delivery. To any of you, the 
concern is that does BIA work with HHS? Is there ability to be 
able to fund some of the programs that are going to prevent 
suicide, to be able to inform, educate the teachers, or the 
tribal elders, or parents of some of these youngsters who are 
facing some kind of depression that leads them to suicide? The 
issues are there seems to be quite a high percentage in Native 
American youth, as well as some of the adults. What are you 
doing? What can be done? What agencies need to come to the 
forefront and, as Mr. Young was saying, work together in tandem 
to be able to address it, whether or not it is their 
responsibility, whether or not it is in law, whether--you know, 
we need to address the issue.
    Mr. Keith. One of the effects, and I think Mr. Pyle has 
talked about this and I think we have all talked about this, is 
that self-governance puts the responsibility on us. We have 
made a great effort in working with different agencies, and 
pulling together different, and Kawerak working with Norton 
Sound Health Corporation and addressing these issues. I think 
self-governance has brought a lot of more people into the 
workforce and a lot more financial and political influence 
within the area of Nome, which, it has changed the dynamics. 
You know, 50 years ago there were signs up: No Eskimos or dogs 
allowed. So that kind of attitude, you know, even though those 
signs aren't around, the effects of those signs are. Self-
governance has made a very big impact on those at least.
    Mrs. Napolitano. OK. I would like to ask some of the other 
witnesses if they have some comments on this. How can we help, 
be able to ensure that these services are made available to 
those in need in your respective areas?
    Mr. Levings. Chairman Rahall and Committee Members, in 
2005, the Mental Health Service for the Minne-Tohe Clinic in 
New Town for the Indian Health Service was the holder of the 
contract at that time. We took it over in May of 2008. Well, in 
2005 when they were failing, there were zero mental health 
counselors. Today, we have six, seven, eight counselors. We had 
an agreement worked out with the University of North Dakota to 
bring in some students to actually learn, intern, but get paid, 
too. So it has went from zero to six, and it is something that 
was a complete failure by Indian Health Service. So when we did 
the letter of intent and the 638 resolution, my primary focus 
was that because you would have elders and tribal members come 
in routinely looking for services at the clinic and there was 
none in 2005. Then we moved for 638 contract, and now we are 
doing well.
    Mrs. Napolitano. Well, but that is your own tribal entity 
taking the initiative.
    Mr. Levings. Right.
    Mrs. Napolitano. What about BIA? What about HHS? What about 
are they working in tandem with you, and, if not, why not? I 
mean, that is my question is you need the services. Anybody 
else?
    Mr. Gomez. Mr. Chairman, Congresswoman Napolitano, as you 
had mentioned, the overall prosperity at Taos Pueblo is 
directly tied to the health and well-being of each tribal 
member. We can't run these DOI programs that we don't have a 
healthy populous.
    Mrs. Napolitano. Right.
    Mr. Gomez. I think you are raising a very, very important 
issue here. When I first came into this hearing I noticed there 
wasn't any DOI, I mean IHS people here, but then, of course 
this is about DOI/BIA, but I think it is very important. They 
need to be part of this discussion so we can begin to make 
those ties in like that. I think you are raising some very, 
very legitimate, very important issues and those type of 
questions need to be addressed. It shouldn't be foreign to this 
discussion on Title IV.
    Mrs. Napolitano. Thank you. Well, the concern that I have, 
Mr. Chair, is that if you don't have a good economy, self-
governance, be able to provide employment for your people, then 
you have this depressive mood that prevails and you are going 
to have much more of the depression leading to suicide. So it 
is a concern, and I am glad to be able to work with you on 
this. Mr. Chair, thank you.
    The Chairman. Thank you. Gentlelady from South Dakota, Ms. 
Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman. I thank you 
and the Ranking Member for holding this important hearing on a 
very important bill, H.R. 4347. I commend Mr. Boren for the 
work that he has put into this bill. There are some new aspects 
to the bill in this Congress that we have been discussing with 
Mr. Boren. We are still seeking input and consulting with 
tribes I represent in South Dakota, and we will continue to 
work with Mr. Boren's committee staff on some of those new 
provisions and how they may affect tribes in South Dakota. You 
know, many tribes have had experiences and some difficulties in 
the 638 contracting process. Nonetheless, you know, the ability 
for tribes to exert their sovereignty through compacting with 
the Department of the Interior is a crucial element of self-
governance.
    I find Mr. Young's comments about where the BIA should be 
situated are interesting, and the questions that Ms. Napolitano 
is raising--you know, Mr. Gomez, your responses--because I 
think just as we have encouraged the Administration to adopt an 
interagency strategy of working with tribes--to leverage 
programs and resources that are available that may help 
overcome some of the difficulties that we have had with 638 
contracting or some of the challenges that self-governance 
tribes have faced. In South Dakota, we have nine tribes. None 
of them are self-governance tribes, I will talk about that in a 
minute--you know, we need to have an appropriate sort of 
intercommittee strategy, whether it is through the 
appropriations process or through the authorizing committees, 
so that we can work through some of these issues more 
effectively.
    The bill that Mr. Boren has introduced is sort of one angle 
among many, you know, that we have to work so that as we are 
looking at consultation and capacity building and meeting the 
needs most effectively in concert with treaty obligations, you 
know, we don't have such a decentralized way of having to try 
to manage that, which is, I think, part of the problem. Now, as 
I mentioned, tribes that I represent, nine Lakota-Dakota-Nakota 
Tribes in South Dakota, they have a long treaty-based history 
with the Federal Government, treaties that establish the duty 
of the Federal Government to directly provide services, whether 
that be in health care and education, in exchange for very 
valuable land and resources that were taken from Native 
Americans, and so I am concerned when I hear reports from 
tribes I have the honor of representing that feel that the BIA 
actually favors providing services through 638 contracts rather 
than working with tribes to directly provide BIA services as 
part of the Federal trust responsibility. There are some 
reasons why tribes in South Dakota, many of whom do have 638 
contracts, have concerns about going in the direction of some 
other tribes in the country, whether they be from Oklahoma, 
California, Alaska, in part because of their geographic 
location, and I guess their inability to as effectively access 
other funds or to have any kind of revenue stream to be able to 
supplement the dollars that are necessary through some of what 
we have seen. I think, you know, Chairman Levings, you spoke to 
this earlier. I didn't hear your testimony, but I understand 
that you had indicated that from 1996 to 2006 your tribe 
supplemented to the tune of over $20 million----
    Mr. Levings. Yes.
    Ms. Herseth Sandlin [continuing]. In terms of some of what 
you had contracted for. Can you just describe a little bit more 
the experiences that your tribe has had, and maybe other 
witnesses could talk about it. Does this bill effectively 
address some of those concerns? How do we best get at that 
particular problem that some tribes face more acutely than 
others depending on where they are located in the country?
    Mr. Levings. Chairman Rahall and Committee Member Sandlin, 
that was my boilerplate statement, I guess you can say that, to 
try to cover all the other tribes that are listening to me out 
there that they are dealing with. Some of them are in remote 
areas, and some of them don't have casinos, and some of them 
depend primarily on the 638 contract. We are fortunate now we 
have a casino, we are fortunate we have oil and gas, we are 
fortunate we have other means that are coming about to make our 
tribe move for independence one day, but we are still making 
that transition. When we had the 638 contracts offered to us in 
the 1970s, and the 1980s and the 1990s, the tribe has moved 
effectively and progressively for that, but nine times out of 
10, every single contract had to have a general fund obligation 
supplement from our tribal government to budget in for roads, 
for instance.
    Every year since the year one we had to put $500,000 on top 
of the contract from our general fund. We took that in 1992. 
Eighteen years, I believe, times $500,000 would be $9 million. 
That is for one contract. Now you go across the board to KDU, 
that was the same situation. Every year they were supposed to 
give us $450,000, so every year we had that contract is another 
$9 million, and successfully as you go around the contract 
service that we have taken on. Even in the Indian Health 
Service that we took on in May 2008, there was a declination of 
indirect cost to contract support, and we had to sue and appeal 
the government. We just settled here about a month and a half 
ago for $1.7 million.
    There was a second concept that we were going to do on our 
clinic 638 contract is to serve as a business non-Indians in 
the community. We were taken to task on that, and we were able 
to do that one day when we get to that point, to provide a 
community clinic. So that would be a business, as Chairman from 
Choctaw, Mr. Pyle, is doing effectively. Hearing, Committee 
Member Sandlin, South Dakota, my brother/sister tribes, I know 
full well what they are dealing with. It is a challenge for the 
Chairman, and Presidents, and Chairwoman down in South Dakota. 
I am from North Dakota. New Town is not moving forward without 
remembering where we came from. When I first got elected to 
council back in 1998, and I was a Taro Director prior to that, 
our unemployment rate was 40 percent.
    Today, it is four percent. So I know what it was like to 
have challenges in South Dakota, my brother and sister tribes 
down there. Today, western North Dakota is doing well. We came 
a long ways. Instead of having 250 people looking for work 
every work, now they could have two jobs if they choose. When I 
hear the comments and questions about, well, self-governance, 
that is why I said there is kind of like a mountain. You got to 
get a clear, clean audit for three years. Well, when they 
include all our enterprises that are challenged, are 
struggling, when they are including all of our radio stations 
and our papers that have nothing to do with the 638 contract, 
it is almost like a mountain for us tribes to get over, but 
yet, we still supplement every year $3 million to all those 
contracts. Respectfully, Chairman Rahall and Committee Member 
Sandlin, that is the challenge that the 638 tribes have.
    Mr. Gomez. Mr. Chairman, with your respect, I would like to 
add to more what Congresswoman Sandlin is talking about; also, 
to address your question regarding a final offer. Under IHS 
rules right now, if you hit an impasse, if the tribe and IHS 
hit some tough areas and you are not agreeing on things, the 
tribe can make is what we call a final offer to IHS. That 
provision is not included with the BIA. It is like if they 
don't agree with you, you end up like going where Chairman 
Pyle's tribe is going, holding up your funds, things like that. 
With the final offer of IHS, that gives a provision. The IHS 
must prove, they must tell you exactly why they are declining 
your final offer, and they must give you legal reasons for why 
they are denying your interests in running certain types of 
programs or certain types of funding.
    However, with Title IV, they revert to the Title I, the 
contracting portion of 638. So, in that sense, we are still 
doing contracting even though this is supposed to be a 
government-to-government compact with the United States 
regarding DOI programs. That may be the connection point with 
Congresswoman Napolitano's comments there. The way we look at 
self-governance at Taos Pueblo, we don't look at it as BIA and 
IHS, we look at it at services to the community. Here at 
Washington, D.C., you know, it is made like that, it is 
compartmentalized like that. We don't work together. That is 
them, this is us. When it comes down to services to the 
community, at Taos Pueblo, when we talk about self-governance, 
we talk about services to the community, whether it is health, 
whether it is DOI type programs. That is our argument for 
including these amendments to the 638 law.
    The Chairman. Thank you. Any other Members wish additional 
questions? If not, the Chair wishes to--I am sorry. Yes?
    Mrs. Napolitano. This is to Mr. Keith. You mentioned a 
letter that was not answered by, is it BIA or Interior, that 
you are still waiting for an answer?
    Mr. Keith. Yes. The lost letter. We resent it to them. It 
regards the stimulus money and the $150 million of maintenance 
funds.
    Mrs. Napolitano. Mr. Chair, would it be possible to ask 
this Committee to look at that letter and see why there has not 
been an answer to them if this is critical for their well-
being?
    The Chairman. Sure.
    Mrs. Napolitano. Would you submit it, sir?
    Mr. Keith. Yes, I will. I believe there are two other bills 
out there in relation to--Title VI of DHHS would probably 
address some of the questions that you have asked. I think 
there is a 477 bill out that has been proposed also that works 
with a multitude of different agencies and helps us to 
consolidate a whole host of different programs to make it work 
at the local level.
    Mrs. Napolitano. But if the agency's not complying with a 
request for information, we need to know. I would like to know.
    Mr. Keith. OK.
    Mrs. Napolitano. Mr. Chair? Thank you.
    The Chairman. The Chair wishes to thank the panel. We know 
you have traveled long distances to be with us today. It has 
been very helpful to us as we continue to draft this 
legislation under the superb leadership of our colleague from 
Oklahoma, Mr. Boren. We will continue to work with him on both 
sides of the aisle in trying to make progress so we can use the 
benefit of your testimony in this whole process. We appreciate 
it. Anything else? If not, the Committee on Natural Resources 
stands adjourned.
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Hon. Jerry Isaac, 
President, Tanana Chiefs Conference, follows:]

   Statement submitted for the record by The Honorable Jerry Isaac, 
                  President, Tanana Chiefs Conference

    I am Jerry Isaac, President and Chairman of the Tanana Chiefs 
Conference (TCC), the traditional tribal consortium of the 42 villages 
of Interior Alaska that is grounded in the belief in tribal self-
determination and regional Native unity.
    On behalf of the Tanana Chiefs Conference, I am happy to submit 
this prepared statement of support and comments for the Hearing Record 
relative to the hearing held on June 9, 2010, on H.R.4347, the 
``Department of the Interior Tribal Self Governance Act of 2010.''
    The TCC is a strong supporter of the Tribal Self Governance Program 
and for decades has contracted and compacted various programs 
traditionally managed by the U.S. Department of the Interior and the 
U.S. Indian Health Service. The result of these undertakings has been 
that TCC has stronger ties with Federal agencies as well as the 
development of administrative and technical capacity within the TCC.
    The Tribal Self Governance Program has also assisted our member 
tribes in establishing themselves as stronger self-governing entities, 
better able to build strong communities and economies while maintaining 
their culture. TCC maintains a strong commitment to assist our member 
tribes improve their self-governing capabilities while providing 
program training, enhancing program service delivery, while 
strengthening tribal administration.
    TCC also provides management for tribal programs and activities to 
ensure contract and compact compliance with their programs and all 
requirements and while promoting tribal self-determination.
    Under Federal law, Indian tribes are authorized to redesign and 
reallocate Federal program funding according to tribal priorities. The 
Tribal Self-Governance Program affords Indian tribes the opportunity to 
acquire the administrative acumen and expertise through Tribes training 
and technical assistance and, in the process, further their ability 
successfully manage an array of programs.
    Since 1994, TCC has compacted for Department of the Interior 
programs on behalf of 34 tribes which has provided the tribes in the 
TCC region the option of directly administering these programs or 
having TCC administer them on the tribes' behalf. This compact was 
carried our through Annual Funding Agreements (AFA) until 2009 when TCC 
entered a Multi-Year Funding Agreement (MFA). Fort Yukon is a co-signer 
to the TCC compact.
    Having secured funding through the MFA, TCC then enters into an 
Annual Memorandum of Agreement (MOA) with participating tribes. The 
Interior programs included in this compact are Village Government 
Services, Family Services, Education, Employment and, most recently, 
the Indian Reservation Roads program which was begun in entered 2009. 
With this arrangement, participating tribes are provided two options 
through the MOA: they may have TCC manage the programs; or they may 
administer them through their respective tribal council offices.
    Pursuant to the terms of the compact, the programs described may be 
reallocated and tailored to accommodate each tribe's unique situation. 
In this way, the tribes--and not the Federal government--may determine 
what best fits their needs. For example, if a tribe has more Higher 
Education students than funding available, funding may be transferred 
from Job Placement and Training to Higher Education to fit the funding 
needs.
    Section 409(d) of the legislation before the Committee will 
continue to authorize tribes to redesign or reallocate or consolidate 
programs in a way they feel best serves their communities.
    Section 409 (k) of the legislation will authorize tribes to 
carryover funding from one year to the next until the funds are fully 
expended. The proposed change will authorize tribes to fully expend 
carryover funds without diminishing the amount of funding potentially 
available to tribes the following fiscal year. This carryover benefits 
the tribes by their continued ability to serve their tribal members in 
the most effective manner. Tribal BIA program needs fluctuate year to 
year and a flexible carryover mechanism helps to address these 
fluctuations.
    TCC has been very active in managing health programs and activities 
as well. Between 1973 and 1984, TCC contracted with the Indian Health 
Service (I.H.S.) for a number of non-medical programs and in 1984 
contracted with the I.H.S. to manage the Chief Andrew Isaac Health 
Center (CAIHC), including medical, dental, pharmacy, nursing, business 
office, medical records, and public health nursing. TCC's Health 
Services manages the health delivery system for the villages of 
Interior Alaska under the terms of Public Law 93-638.
    In partnership with our villages, TCC's Health Services also 
operates and manages smaller satellite clinics in 28 villages. In 
January 2003, (AAAHC) reviewed Chief Andrew Isaac Health Center, 
Counseling Center, Dental Clinic and Eye Clinic and received a three-
year accreditation of these facilities.
    It is the mission of TCC Health Services to provide culturally-
sensitive, quality medical care that is fiscally responsible.
    Thank you for the opportunity to submit this statement and if the 
Committee has questions or would like additional information, please do 
not hesitate to contact us.
                                 ______
                                 

    The documents listed below have been retained in the 
Committee's official files.
    <bullet>  Cherokee Nation, Chad Smith, Principal Chief--
Written statement in support of H.R. 4347. No date. 3 pages.
    <bullet>  Hoopa Valley Tribal Council--Written statement in 
support of H.R. 4347. June 9, 2010. 4 pages.
    <bullet>  Jamestown S'Klallam Tribe, W. Ron Allen, 
Chairman--Written testimony in support of H.R. 4347. June 9, 
2010. 5 pages.
    <bullet>  Kawerak, Inc., Loretta Bullard, President--Letter 
to Hon. Larry EchoHawk, Assistant Secretary of Indian Affairs, 
on Implementation of the Recovery Act Road Repair and 
Restoration Program. February 23, 2010. 6 pages.
    <bullet>  National Congress of American Indians (NCAI)--
Letter in support of H.R. 4347 to Rep. Dan Boren. May 25, 2010. 
4 pages.
    <bullet>  Northern California Power Agency (NCPA)--Letter 
expressing concerns with a provision in H.R. 4347. June 8, 
2010. 2 pages.
    <bullet>  Ojibwe Indians--Letter in support of H.R. 4347. 
June 8, 2010. 8 pages.
    <bullet>  Redding Electric Utility--Letter of concern with 
H.R. 4347. June 8, 2010. 2 pages.

                                 <all>

</pre></body></html>
